<html>
<title> - DEFINED EXPECTATIONS: EVALUATING VA'S PERFORMANCE IN THE SERVICEMEMBER TRANSITION PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]









DEFINED EXPECTATIONS: EVALUATING VA'S PERFORMANCE IN THE SERVICEMEMBER 
                           TRANSITION PROCESS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, MAY 29, 2014

                               __________

                           Serial No. 113-71

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-982                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas
MARK AMODEI, Nevada                  RAUL RUIZ, California
PAUL COOK, California                GLORIA NEGRETE McLEOD, California
DAVID JOLLY, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                              ----------                              

                         Thursday, May 29, 2014

                                                                   Page

Defined Expectations: Evaluating VA's Performance in the 
  Servicemember Transition Process...............................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman........................................     1

Hon. Dina Titus, Ranking Member..................................     3
    Prepared Statement...........................................    41
Hon. Jeff Miller, Chairman of the Full Committee.................     5

                               WITNESSES

Ms. Nancy E. Weaver, Deputy Assistant Secretary of Defense, 
  Warrior Care Policy DoD........................................     7
    Prepared Statement...........................................    42

    Accompanied by:
        Mr. Dave Bowen, Director of Health Information 
            Technology, Defense Health Agency DoD

Ms. Diana Rubens, Deputy Under Secretary for Field Operations, 
  Veterans Benefits Administration, U.S. Department of Veterans' 
  Affairs........................................................     8
    Prepared Statement...........................................    47

    Accompanied by:
        Thomas Murphy, Director of Compensation Service, VBA, 
            U.S. Department of Veterans' Affairs
Ms. Linda A. Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Department of 
  Veterans Affairs...............................................    19
    Prepared Statement...........................................    50

    Accompanied by:
        Ms. Nora Stokes, Director, Bay Pines Benefits Inspection 
            Division, OIG, U.S. Department of Veterans' Affairs
    And
        Mr. Ramon Figueroa, Project Manager, Bay Pines Benefits 
            Inspection Division, Office of Inspector General, 
            U.S. Department of Veterans' Affairs
Mr. Eric Jenkins, Rating Veterans Service Representative, Winston 
  Salem Regional Office, American Federation of Government 
  Employees, AFL-CIO and the AFGE National VA Council............    27
    Prepared Statement...........................................    61

Ms. Debra J. Gipson, Individual Servicemember....................    29
    Prepared Statement...........................................    66

Mr. Gerardo Avila, National MEB/PEB Representative, The American 
  Legion.........................................................    31
    Prepared Statement...........................................    68

Mr. Paul Raymond Varela, Assistant National Legislative Director, 
  DAV............................................................    32
    Prepared Statement...........................................    73

Mr. Brendon Gehrke, Senior Legislative Associate, Veterans of 
  Foreign Wars of the United States..............................    34
    Prepared Statement...........................................    83


 
DEFINED EXPECTATIONS: EVALUATING VA'S PERFORMANCE IN THE SERVICEMEMBER 
                           TRANSITION PROCESS

                              ----------                              


                         Thursday, May 29, 2014

              U.S. House of Representatives
                     Committee on Veterans' Affairs
 Subcommittee on Disability Assistance and Memorial Affairs
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[chairman of the subcommittee] presiding.
    Present:  Representatives Runyan, Bilirakis, Cook, Jolly 
Titus, and O'Rourke.
    Also Present: Representative Miller.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon and welcome, everyone. The 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    Today's hearing will focus upon VA's role in the transition 
from servicemember to veteran with a particular focus on the 
Integrated Disability Evaluation System commonly known as IDES, 
as well as the Benefits Delivery at Discharge and Quick Start 
programs.
    We will seek information on VA resources and production as 
well as timeliness and quality of VA's components in the 
process.
    Further, I would like to hear today about the quality of 
communication both within transitioning members as well as 
between the Department of Defense and the Department of 
Veterans Affairs in this process.
    First to address IDES, while I understand that time lines 
are improving, we want to start off by making it clear that 
while this continuing improvement matters, I am frequently 
contacted by servicemembers who are frustrated with the 
process. They do not know how long it is going to take, when 
they will get answers, and they do not know when they can make 
plans for their future.
    I understand that the DoD reports quite high satisfaction 
from servicemembers undergoing IDES, but it does not reflect 
the stories that have recently been shared with me.
    I have also gotten the sense that the IDES process may not 
be a top priority to VA because VA has chosen to place what 
seems to be a fairly exclusive focus on eliminating the backlog 
of claims to the detriment of these transitioning 
servicemembers.
    So let's begin the understanding that if this belief exists 
at VA, it is not okay. These transitioning servicemembers have 
served in recent years during a decade plus of wars in Iraq and 
Afghanistan and with multiple deployments and many with 
service-connected injuries that prevent their continued 
military service.
    Here I have correspondence from the past couple of months 
received from soldiers who are awaiting the start of their post 
military lives.
    One soldier frustrated with his inability to plan for the 
future wrote, and I quote, ``It has been four years since I 
have shared a Christmas with my family. It would mean the world 
if I could finally spend Christmas with them this year. I have 
gone through the MEB board processes and am currently awaiting 
ratings,'' end quote.
    Another reads, quote, ``I have been awaiting my rating for 
a long time now. I have also been trying to contact my VA reps 
and the only way I can talk to them is if I go down to their 
office. I call and call and leave messages and emails but never 
get anything back unless I am in their office. This entire 
waiting game has been putting a very big strain on my family 
and I have been trying to convince my family that it is going 
to come any day now. Well, it hasn't and now my wife wants to 
get a divorce. I do not know what I would do without my two 
daughters and my wife. If there is anything you can do to help 
me out or get me some information, that would be great,'' end 
quote.
    And another infantryman wrote, quote, ``I am losing my mind 
trying to find out why it is taking my rating so long to come 
back from the VA. I honestly wouldn't reach out if it weren't 
very important, but I have been under so much stress lately 
that my blood pressure has shot through the roof. My whole MEB 
board process has been putting me through hell more so than my 
trip to Afghanistan in 2009. If there is anything you could do 
to assist me in figuring out what is taking the VA so long to 
rate me and possibly expedite the process, I would forever be 
grateful,'' end quote.
    These pleas are for assistance and disgusting, and we must 
do better.
    Today's hearing is entitled Defined Expectations: 
Evaluating the VA's Performance in Servicemember Transition 
Process. And if nothing else, I want that to be the takeaway, 
defined expectations.
    These men and women have served honorably during a very 
difficult time in the military. At the very least, they deserve 
an open line of communication and deserve reasonable, defined 
expectations as their time lines, their futures, their 
transition to the civilian world, more must be done to define 
expectations.
    In addition to the IDES updates at the forefront of today's 
hearing, we will also seek information on the process including 
the uses of brokering as well as time lines and accuracy of the 
Benefits to Delivery at Discharge and Quick Start programs. We 
will hear about the VA's anticipated new pre-discharge program 
which may consolidate the existing BDD and Quick Start 
programs.
    I look forward to hearing from today's witnesses. And with 
that, I will begin introductions.
    Seated at the witness table, we have all members from the 
first panel. From the Department of Defense, we have Ms. Nancy 
Weaver, deputy assistant secretary of Defense, Warrior Care 
Policy, who is accompanied by Mr. Dave Bowen, Director of 
Health Information Technology, Defense Health Agency.
    And from the Department of Veterans Affairs, we have Ms. 
Diana Rubens, deputy under secretary for Field Operations with 
the Veterans Benefits Administration, who is accompanied by Mr. 
Thomas Murphy, Director of Compensation Services.
    Upon conclusion of the first panel, we will see two 
subsequent panels which include for panel two Ms. Linda 
Halliday, the assistant inspector general for Audits and 
Evaluations for the Office of Inspector General, U.S. 
Department of Veterans Affairs, accompanied by Ms. Nora Stokes, 
director of the Bay Pines Benefits Inspection Division, and Mr. 
Ramon Figueroa, project manager with the Bay Pines Benefits 
Inspection Division.
    Panel three will consist of Mr. Eric Jenkins who is here in 
representation of the American Federation of Government 
Employees, AFL-CIO, and the AFGE National VA Council.
    Ms. Debra Gipson is here today and is an individual member 
and she will be introduced shortly by Congressman O'Rourke.
    Mr. Gerardo Avila, national MEB/PEB representative with The 
American Legion; and Mr. Paul Varela, assistant national 
legislative director with Disabled American Veterans; and Mr. 
Brendon Gehrke, senior legislative associate with the Veterans 
of Foreign Wars of the United States.
    One final point, all of the named witnesses are present. I 
must advise that pursuant to Title 18, United States Code 
Section 1001 known as the False Statement Act, this is a crime 
to knowingly give false statements in federal jurisdiction 
including a congressional hearing.
    With that acknowledgment, I thank you all for being with us 
today.
    I now yield to the ranking member, Ms. Titus, for her 
opening statement.

    OPENING STATEMENT OF DINA TITUS, RANKING MINORITY MEMBER

    Ms. Titus. Thank you, Mr. Chairman. Thank you for holding 
this hearing today.
    Thank all of you for coming to provide us with some needed 
information.
    As you heard the chairman describe today, we are going to 
look into the performance of programs that VA and DoD utilize 
for determining fit for duty status for ill or injured 
servicemembers, as well as programs that are designed to 
expedite the adjudication of claims submitted by separating 
servicemembers.
    Particularly we are going to focus on the Integrated 
Disability Evaluation System, IDES, the Benefits Delivery at 
Discharge program, BDD, and the Quick Start program. All of 
these programs have now been up and running for a number of 
years.
    IDES was initiated in 2007 as a follow-up to the poor 
conditions and fragmented care that were exposed at Walter Reed 
Army Hospital.
    BDD was launched back in 1995 as a pilot program and then 
became fully operational in 1998. The intent of BDD was to 
assist disabled servicemembers in making a seamless and 
successful transition to civilian life by allowing them to get 
their claims completed as early as possible while they have all 
their medical information readily available.
    Quick Start was launched in 2008 and it is similar in 
nature to BDD. And it was established to provide an expedited 
disabilities benefit process to servicemembers who are going to 
be discharged within 59 days.
    Now, despite having long been established and having enough 
time to get over growing pains and any other problems in the 
early stages, all of these programs continue to face 
challenges, are performing far below expectations.
    The one similarity that they seem to have is that they 
suffer from a continued poor performance in the adjudication of 
the claims in each of the three programs.
    Of particular interest to me is the number of claims under 
the BDD and Quick Start that has dropped off. There are many 
fewer claims now than there used to be and I am concerned that 
the reason for that is that servicemembers are choosing to 
bypass these programs that are designed to provide an expedited 
system over concerns that participation actually delays the 
process of receiving benefits.
    In fact, Quick Start has been known to be called Quick 
Start and slow finish as a result of that.
    So we have had highlighted for us by the VA's OIG about 
eliminating the benefits backlog has kind of shifted priorities 
and come at the expense of other benefits and claims such as 
IDES and Quick Start which have been moved to the back burner, 
and that is unfortunate.
    You heard the chairman read some of the emails that we have 
been receiving. They all generally have the same ask. I am in 
the army. I am waiting for a decision. My family and I need to 
get on with our lives.
    Our staff has witnessed firsthand the poor culture that is 
often present at these IDES stations and wounded warrior 
battalions.
    I want to thank Ms. Gipson, who is an army veteran, who 
recently went through the process and came to be with us today 
to talk about some of the negative culture that is in these 
program and how we might address it.
    It is just a concern that these programs that are supposed 
to be so helpful really end up being harmful because they hold 
our servicemembers' lives in bureaucratic limbo.
    An army reservist who enters IDES today won't complete the 
program until August 17th, 2015. A hundred and eighty-one days 
of this 443 day period will be spent waiting for a VA rater to 
pick up the claim and provide him or her with a rating. Just to 
get a rating it takes that long.
    So as our servicemembers wait for a rating decision, they 
are forced to delay critical aspects of their transition. They 
and their spouses are hesitant to relocate, to buy a home, to 
enter a school program, to find a new job because they just 
don't know what is going to happen to them.
    Now, we know that servicemembers face obstacles when they 
are transitioning out of the Armed Services. That is already 
difficult enough. The VA should be an asset, not a hindrance to 
that process.
    So I think we need to take a hard look at the resources 
that we are dedicating to these programs and figure out how we 
can meet their goals today and not tomorrow. So we need to take 
a fresh look at these programs.
    We with the staff recently looked at this and found that 95 
percent of servicemembers who enter the IDES program are found 
not to be fit to serve because of an illness or an injury, so 
they know they are going to be discharged, 95 percent.
    If we know that many are not going to go back into the 
service but are going to be discharged, shouldn't we be taking 
a different approach offering them some flexibility, some 
options while they are making that transition?
    So I hope that those are the kind of things that we will 
look at today in this hearing and see if we can't re-prioritize 
and shift some of our emphasis on being flexible and making 
this work as opposed to just having families sit around waiting 
for the rating.
    Thank you. I yield back.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. Thank the gentle lady.
    With that, I will recognize the chairman of the full 
committee, Mr. Miller, for a statement.

             OPENING STATEMENT OF HON. JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
the indulgence. I want to make a few remarks on the 
servicemember transition process, particularly in regards to 
IDES.
    Currently the time line of IDES induction to receipt of 
benefits is targeted not to exceed 295 days, but recent DoD and 
VA reports place the average time line at over 350 days. That 
is an average, but that average means that there are many 
servicemembers that take much longer to complete.
    In an effort to address IDES inefficiencies, I recently 
introduced an amendment to the fiscal year 2015 National 
Defense Authorization Act that would do the following:
    First, it would require the use of a standardized form set 
which would be approved by both the secretaries of DoD and VA 
as was envisioned by the Dole-Shalala commissioners' 
recommendations.
    Second, it would collocate certain DoD and VA personnel to 
allow for great interdepartmental collaboration and to reduce 
delays in transfers of information.
    Third, it would compel the usage of a bridging software 
solution between DoD's MY IDES and VA's ebenefits dashboards to 
allow servicemembers greater transparency as to where they are 
in the process at the current time.
    Finally, the amendment would establish a working group 
comprised of various personnel of DoD and VA as well as private 
industry leaders to reevaluate the program itself.
    The working group would then make recommendations on how to 
better serve those who are going through this process as well 
as how to better utilize the resources that are allocated.
    I do want to take a moment to emphasize that the goals of 
my IDES amendment are twofold. First, increased transparency to 
the servicemembers and increased accountability for the 
respective departments.
    So I think everybody in this room is already aware the 
issues of transparency and accountability are of utmost 
importance, particularly as we continue to investigate the 
ongoing delays in accessing care at the VA healthcare 
facilities across this great Nation.
    Since the transition process, whether through IDES, BDD, 
Quick Start, or the traditional claims process, is a 
servicemember's first exposure to the VA system, and we want to 
ensure that it is a positive experience for all who use it and 
those that it was designed to serve, those very people that 
have served our country.
    Mr. Chairman and to Members of the committee, thank you for 
your indulgence and I yield back my time.
    Mr. Runyan. Thank the gentleman.
    And now I want to recognize Mr. O'Rourke. I believe he has 
a statement, opening statement.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I just wanted to actually introduce someone who is going to 
be on one of the later panels, Debra Gipson. I am sad to say, 
Mr. Chairman, a former constituent of mine, she just moved out 
of El Paso in March of this year. We are going to miss her. But 
prior to that, she was stationed at Fort Bliss, a former 
captain in the U.S. Army.
    And during her time as a commissioned officer, she served 
as the executive officer for the Warrior Transition Unit, Bravo 
Company at Fort Bliss, Texas. She was medically separated from 
service through the Integrated Disability Evaluation System or 
IDES.
    And she is here today again in a later panel to deliver a 
statement about her experience with IDES and offer 
recommendations to improve the system.
    And so, Mr. Chairman, I just wanted to be here to welcome 
her and introduce her to the rest of this committee.
    With that, I yield back.
    Mr. Runyan. Thank you.
    And I don't believe any other Members have a statement. So 
at this time, I welcome our first panel. And your complete and 
written statements will be entered into the hearing record.
    And, Ms. Weaver, you are now recognized for five minutes.

 STATEMENTS OF NANCY E. WEAVER, DEPUTY ASSISTANT SECRETARY OF 
     DEFENSE, WARRIOR CARE POLICY, DEPARTMENT OF DEFENSE, 
   ACCOMPANIED BY DAVE BOWEN, DIRECTOR OF HEALTH INFORMATION 
TECHNOLOGY, DEFENSE HEALTH AGENCY, DEPARTMENT OF DEFENSE; DIANA 
 RUBENS, DEPUTY UNDER SECRETARY FOR FIELD OPERATIONS, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS, 
ACCOMPANIED BY THOMAS MURPHY, DIRECTOR OF COMPENSATION SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

                  STATEMENT OF NANCY E. WEAVER

    Ms. Weaver. Thank you.
    Chairman Runyan, Ranking Member Titus, and distinguished 
Members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss the Integrated Disability 
Evaluation System, also known as IDES.
    Since 2007, the Departments of Defense and Veterans Affairs 
have collaborated to create an integrated and transparent 
disability evaluation system for servicemembers who have 
illnesses or injuries that may impede their ability to perform 
their military duties.
    Today IDES accounts for about 97 percent of all DoD 
disability evaluation cases. In IDES, servicemembers receive a 
set of disability examinations conducted according to VA 
protocols and disability ratings prepared by VA.
    Military departments determine fitness for duty and only 
compensate servicemembers for conditions that compromise their 
ability to perform their military duties. VA compensates for 
all conditions incurred or aggravated during military service.
    The advantages of IDES compared to Legacy systems include 
the elimination of duplicate medical exams, consistency between 
DoD and VA disability ratings, and reduce wait times for VA 
disability benefits since rating determinations are completed 
prior to servicemembers' separation. These advantages have 
contributed to improved servicemember satisfaction within the 
IDES process.
    We are continuing to implement process enhancements such as 
improved policy, increased staffing levels, and new training 
requirements for caseworkers. These and other improvements have 
enabled us to achieve and remain below our IDES core processing 
goal of 105 days for the past several months.
    Information technology can also help us gain more 
efficiency within the IDES process. That is why we are working 
to develop a system that will support end-to-end case 
management, tracking, reporting, and a bidirectional electronic 
case file transfer.
    We will continue to work with VA to ensure system interface 
requirements are identified early. The Department of Defense is 
working diligently to support an integrated disability system 
that ensures servicemembers receive timely and transparent 
compensation for injuries or illnesses incurred by the line of 
duty today, tomorrow, and in the future.
    Thank you, and we look forward to your questions.

    [The prepared statement of Nancy E. Weaver appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Weaver.
    And now next we will hear from Ms. Rubens. Ms. Rubens, you 
are now recognized for five minutes.

                   STATEMENT OF DIANA RUBENS

    Ms. Rubens. Good afternoon, Chairman Runyan, Ranking Member 
Titus, Members of the subcommittee.
    My testimony today will focus on the status of the 
Integrated Disability Evaluation System or IDES, Benefits 
Delivery at Discharge, BDD, and the Quick Start programs.
    With respect to IDES, VA and DoD's joint efforts over the 
past six years have resulted in changes and improvements in our 
disability evaluation system. Together the departments have 
created an integrated process for servicemembers who are being 
medically retired or separated.
    This joint process was designed to eliminate the 
duplicative, time-consuming elements of the separating 
disability determination processes within VA and DoD.
    The goals of our integration were to provide a seamless 
transition of benefits and healthcare for separating 
servicemembers through IDES. As a result of our collaborative 
efforts, we have worked to achieve these goals.
    Currently there are approximately 29,000 servicemembers. 
For the four combined core steps, VA average processing time in 
April 2014 was 183 days, the lowest core time since April of 
2013. Our target for those combined core steps is 100 days of 
that 295 day combined VA/DoD target.
    In an effort to continue to improve, we created a plan to 
improve IDES timeliness that involved a phased approach. The 
first phase of that plan was to meet benefit notification 
timeliness standards by March of 2014 which we have done.
    This portion of the IDES process is focused on ensuring 
servicemembers who are transitioning into the civilian world as 
veterans receive timely benefits to which they are entitled.
    The second phase of the plan is to meet the timeliness 
standards for the proposed ratings by October of 2014. We are 
on track to meet that goal and will do.
    Our continued partnership with DoD is critical. VA and DoD 
are committed to supporting our Nation's wounded, ill, and 
injured servicemembers through the IDES process.
    The BDD and Quick Start programs are important elements of 
VBA's strategy to provide transitional assistance to separating 
or retiring servicemembers and engage those servicemembers in 
the disability claims process prior to discharge.
    VBA's goal is to ensure that each servicemember separating 
from active duty who wishes to file a claim with VA for 
service-connected disability benefits will receive assistance 
to do so.
    Participation in the BDD program is available to 
servicemembers who are within 60-180-days of being released 
from active duty and are able to report for a VA exam prior to 
discharge.
    Quick Start made pre-discharge claim processing available 
to 100 percent of transitioning servicemembers including those 
who are within 59 days of separation.
    Like many of our regular non-pre-discharge claims work, VBA 
has made tremendous progress in the past 12 to 15 months, but 
we recognize we have work left to do.
    As of April of 2014, the average days pending for our Quick 
Start claims is 98.3 days, an improvement of 137 days since May 
of 2012. As of April of 2014, the average days pending for our 
BDD claims is 136 days, an improvement of 55 days since April 
of 2013.
    Claims accuracy is a key element of VBA's transformation 
plan overall, and we continue to improve in that arena as well, 
but currently it is not measured specifically for our BDD or 
Quick Start claims process at the three rating activity sites.
    Instead, the accuracy is measured for each regional office 
as a whole including the BDD and Quick Start claims that we are 
processing.
    As of April of 2014, our three regional offices processing 
BDD and Quick Start claims and their rating activities have 
three-month, issued-based quality between 96 and 98 percent.
    VBA is now working to redesign the pre-discharge claim 
process by building on lessons through the execution of our BDD 
and Quick Start programs. The new pre-discharge program will 
consolidate and replace the existing BDD and Quick Start 
programs.
    We will be leveraging functionality now available in our 
Veterans Benefits Management System and in our ebenefits system 
to add convenience to both the application process and 
efficiency throughout the claims process.
    VBA is committed to supporting our Nation's servicemembers 
through improvements in our pre-discharge programs. We believe 
that the continued enhancements are critical to program 
success, nothing less than our servicemembers and future 
veterans deserve.
    That concludes my statement. I am happy to answer any 
questions you might have.

    [The prepared statement of Diana Rubens appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Rubens.
    And I will begin a round of questioning alternating between 
Members at their arrival times. My first is for both the VA and 
the DoD.
    Ms. Weaver, you indicated throughout the process that DoD 
and VA caseworkers keep servicemembers informed of progress in 
their cases. While this streamlined communication may exist in 
isolated cases, we know from speaking to large groups and 
several examples in my opening statement that for 
servicemembers at numerous installations, this communication is 
simply not occurring as a matter of routine.
    How is this communication going to prove, and I would like 
both perspectives from both you at the DoD, Ms. Weaver, and Ms. 
Rubens at the VA?
    Ms. Weaver. Thank you, sir.
    We have recently increased our manpower in the PEBLOs, and 
we find that we have also improved the training. We have 
minimal training standards and required training for each of 
the PEBLOs, providing them more information.
    As far as keeping the individual aware at the beginning of 
the process, each member who is enrolled or referred to IDES is 
given a caseworker or a PEBLO. That individual interacts with 
the servicemember throughout all phases.
    At the beginning of the process, the member is told 
approximately how long the process would take and is updated as 
they move from phase to phase and keeps them aware of what they 
need to do. And they are encouraged to keep their family 
members updated or bring them in so that they are aware of what 
is going on through the process also.
    Mr. Runyan. Ms. Rubens.
    Ms. Rubens. Our military services coordinators are located 
at the intake sites along with the DoD PEBLOs in an effort to 
ensure not only referred conditions that DoD is referring to 
the MEB/PEB process, but any claimed conditions that veteran 
wants to claim, our military services coordinators are there to 
help walk them through that application process and understand 
the process.
    They are also there, frankly, to serve, if you will, as a 
touch point or a reach back to our rating activity sites so 
that as that veteran has questions, we are capable of also 
getting back to that rating activity site to share information 
with that servicemember and/or their family.
    Mr. Runyan. I want to go back to Ms. Weaver. You said the 
interactions happen typically as they move from phase to phase.
    Are there huge gaps in timing of different phases, or are 
they pretty standard as they fall in a time line? Say there are 
three phases in the process. Does one take three-quarters of 
the year; the next one take a month typically?
    Ms. Weaver. Each phase that they go through has a goal in 
the process.
    Mr. Runyan. Are the servicemembers made aware of the time 
line in the phase or just the overall process?
    Ms. Weaver. They are told of the overall as well as each 
phase. And as they go through each phase, they can tell them 
where the next phase should be.
    However, we don't have a case tracking system that will 
tell them where in the phase they are, if their claim is being 
adjudicated, and how long it is going to take before that is 
done or when the informal PEB is going to be completed and 
moved to the next one, next phase.
    Mr. Runyan. I have one last question, and I am going to go 
over a little bit. It is actually for Mr. Murphy.
    As accuracy is an overarching matter of importance, I would 
like to ask you a question about VBA's quality component STAR.
    VBA's STAR program has several classifications of error 
such as benefit entitlement decision documentation/notification 
and administrative. However, VBA's national rating agency is 
based solely on benefit and entitlement error.
    My understanding is that STAR does not count errors, for 
instance, with potential to affect veterans' benefits such as 
when a claims folder lacked required evidence including a 
medical examination or opinion needed to make an accurate 
decision.
    Can you comment on any of that?
    Mr. Murphy. I would say that that is not an accurate 
statement, that the absence of an examination when one was 
needed would be called a benefit entitlement error for us. So 
we do have the classifications of error that you just 
described, which is a benefit entitlement error.
    Part of that is that if there is something that should have 
been gained, evidence that should have been included in the 
file or reviewed that would have affected the outcome, that 
would require a benefit entitlement error to be called.
    Mr. Runyan. Okay. With that, I recognize Ms. Titus for her 
questions.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just ask Ms. Rubens if you have an explanation for 
why the number of people going into these programs has dropped 
off. Only a third of the transitioning servicemembers elect to 
use these programs do you think that if the VA made the same 
kind of investment that the Department of Defense made in 
personnel and also some of the made changes described by Ms. 
Weaver, would that help with the backlog?
    Ms. Rubens. Certainly. I would tell you that I have heard 
particularly some of the concerns about the Quick Start not 
getting as many referrals as we anticipated. I would tell you 
that we know we had some challenges with timeliness.
    We made some dramatic changes to the resources that we 
provided to both the BDD and Quick Start processing in July of 
2012 in an effort to ensure that we closed on those 
performance, particularly around timeliness, numbers that we 
were seeing then.
    I reflected in my statement the improvements we have made, 
and we continue to look for those to be not only sustained but 
grown upon as we work to merge BDD and Quick Start from the 
standpoint of the expectation that servicemember transitioning, 
whether they have one to 59 days and perhaps not able to get to 
a VA exam prior to discharge or whether the 60-180-day mark and 
can, in fact, complete the exam process to ensure timely 
processing of those claims as they transition to civilian life.
    Ms. Titus. The deadlines that you have, though, for meeting 
the goals keep getting pushed back, don't they? Hadn't one now 
been pushed back to October for meeting some of those time 
lines that were supposed to be met in August?
    Ms. Rubens. Ma'am, the time lines that you are referring 
to, I believe, are for the IDES program versus the BDD and 
Quick Start. And we do look at those somewhat differently 
because of the nature of that servicemember and the IDES 
program being boarded out for disease or injury.
    From that standpoint, in August for the proposed ratings, 
we will close the inventory capacity that we need to. By 
October, we will hit our deadline for providing the proposed 
ratings. And we are all ready for the final notification to 
that servicemember. We are now meeting 30 days for that time 
period.
    Ms. Titus. Okay. With an average of 48 days, I think, but--
all right. I would like to ask you about the fact that 95 
percent of the people in this program are going to be 
discharged.
    Is there not some way to address that? We have heard a lot 
about segmented lanes and express lanes for other kinds of 
benefits. Is there not some way to look at some more 
flexibility there? If we know 95 percent are not going to go 
back into active duty, can't we figure out some way to 
prioritize those cases and move them out faster?
    Ms. Rubens. You know, ma'am, I think that particularly 
around the IDES program, it has been a joint process with DoD. 
We want to ensure that we are meeting the spirit and the 
intent, which is to move that along as quickly as possible.
    And I will turn to Ms. Weaver to correct me to a hundred 
percent, but I also think that there is the obligation of 
ensuring we have gotten them to the point where they are ready 
to be discharged and want to ensure that we work with DoD and 
the requirements that they have established for ensuring that 
servicemember is ready for transition.
    Ms. Weaver, I don't know if you would add to that.
    Ms. Weaver. We are working with VA to look at other 
opportunities and concepts to expedite the process. We do have 
an expedited process for catastrophically injured or ill 
personnel.
    To date, after briefing each member who was qualified, we 
have had no one who has opted to take that process, but we are 
looking to see if we can broaden that concept to those that 
aren't catastrophically, but too seriously, and see if we can 
expedite it. These are in concept stages, and we are working 
with the VA on that.
    Ms. Titus. Okay. Thank you, Mr. Chairman.
    Mr. Runyan. Thank the ranking member.
    With that, the chair recognizes Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    Just a couple of comments and probably the same ones I had 
when I was chair of the Veterans Committee and I was in 
California. And I look at it from the perspective of the 
veterans and the people that you are dealing with.
    You know, just going through this paper right now, we are 
looking at BDD, IDES, PEBLO, MSC, MEB, DBQs, CAVC, ADC. I know 
that one. That is assistant division commander. And I knew MEB. 
That's marine expeditionary brigade. The PEBLO was the spy ship 
that was captured by the North Koreans. I thought it was BDA, 
which is battle damage assessment. NARSUM, DBQ, I could go on 
and on and on.
    You know, I think I know more about Klingon and that 
vocabulary than these acronyms, which just keep multiplying 
over and over. You use them all the time. I think I know most 
of them. I tried to forget most of them, you know, after 26 
years in the marine corps, and then I got an education, and you 
learn all kinds of things.
    The point I am making is that trying to communicate with 
the people that you serve by using this foreign language, at 
least from my perspective, is very, very difficult. And a lot 
of people don't get it, particularly the seniors. They have 
serious problems.
    Ms. Titus talked about that 95 percent. When I see 95 
percent, I think that is something that we can make to 
streamline the process. We can do that. You know, airlines 
notify people when their plane is going to be late or what have 
you.
    The technology now, and I tell you, I am probably the worst 
one to talk about technology because I am horrible at it. You 
know, thank God I am married. I have a wife who is very bright 
and I have grand kids who fix my computer.
    But a lot of people are just brain dead when it comes to 
technology, but you have to have a respect for some of these 
things that can streamline that and make the system more 
efficient.
    Now, it just upsets me that it takes so long. And I look at 
it, and this is a statement more than a question, that when 
World War II started, you know, where people had to enlist, go 
through the physicals, get trained, be on the front line 
almost, you know, so that we wouldn't lose the war, they did 
it. And getting people in there, same thing with Korea and 
other times where you get people in and you can expedite the 
process.
    And now we have the system on the back end where people--I 
spent 26 years, lot of people spent a lot of years. It is a 
very, very cumbersome process that--and I think part of it is 
that it is very complex, at least, and I don't think I am the 
dumbest person. In this group, maybe I am.
    But trying to understand all this stuff when you are going 
through it, I think we have got to at least make it more user 
friendly so that you can have that feedback easily and right 
now the process starting with the language is very, very 
cumbersome.
    Everybody that works, they have their comfort set of 
acronyms and vocabulary. The average person is too nice to say 
what does that mean or what is the impact on it. I am dumb, so 
I have to ask what the acronym is and give me an explanation.
    But the average veteran that comes in there that are used 
to--a lot of them are used to taking orders and what have you, 
they are relying on that gunnery sergeant, that staff sergeant, 
that master sergeant who they are vital. And then you come out 
of that and we are talking about a bureaucratic nightmare.
    So I understand what you are trying to do and I applaud it. 
I just want to throw my two cents into, hey, let's get it down 
to where at least somebody like me could understand it and 
other veterans. I think you would have much more cooperation 
and they could understand what is going on.
    Thank you. I yield back.
    Mr. Runyan. Thank the gentleman.
    With that, the chair recognizes the gentleman from Texas, 
Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair.
    And, Mr. Cook, you made me feel a lot more comfortable with 
my ignorance. And so if you can admit it, then I feel a lot 
more comfortable in admitting my own.
    But, Mr. Chair, earlier I had the privilege of introducing 
Ms. Gipson who will be testifying in a later panel. I first met 
her in El Paso when she was at the WTU. She had organized a 
tour of that facility for me.
    And in getting to tour that facility and meeting some of 
the servicemembers who were there, we first learned that we had 
soldiers at Fort Bliss at the WTU who had literally been 
languishing there for months and years because of delays within 
this IDES system and specifically the DRAS in Seattle.
    And, Ms. Rubens, when we last had a chance to speak about 
this in February of this year, I talked about the VA rating 
goal being 15 days and for the Fort Bliss soldier at the WTU, 
it was actually 143 days. The benefits goal being 30 days at 
that time. It was 87 days in reality.
    That was my focus then. It is still my focus today because 
what I think I have heard you all say is that we are now 
meeting our benefits goal as of April of this year.
    But when I look at the latest data which is 18th May of 
this year, it shows that for the army, we are at 48 days 
instead of the goal of 30. And the Fort Bliss soldier is at 49 
days.
    When I look at what you are committing to doing by August 
slash October in the rating getting to 15 days, we are 
currently at 132 days army-wide and we are at 131 for the 
soldiers at the WTU at Fort Bliss.
    So explain to me the inconsistencies on the benefits goal 
that you say that you have already achieved and the numbers 
that I am seeing here for May and then how you can possibly 
achieve the goal for October given the wide variance between 
where you are supposed to be and where you are today.
    Ms. Rubens. Yes, sir. And I would tell you that I think 
that we are talking about the work that we are completing in 
the current month versus the numbers you are reflecting are for 
the entire year, the average of everything that we have 
completed.
    What we know about the work we are completing today as we 
look, if you will, behind it in the system, that work that is 
coming down the path is much younger. And so as we are now 
achieving for the benefits notification phase, we are now in a 
timely position. The capacity that we have will continue to 
maintain that timely output for those claims that are coming to 
us in that component of the phase.
    As we continue to work for the proposed ratings, similar 
issue, the capacity with which we are tackling the volume of 
work come August, we will now marry up the work flowing to 
those folks and going out the door will put us into a timely, 
15 day for a proposed rating decision time frame as well 
allowing us for the October number to catch up, if you will, on 
the average for the entire year.
    Mr. O'Rourke. Let me see if I can understand this because 
this is a difficult concept for me to get and it is similar to 
the way that you explained to us the backlog numbers when it 
comes to disability claims for veterans and how we should be 
measuring that backlog.
    So if someone enters the system today, we will just use 
Fort Bliss as an example, at the WTU there, at the benefit 
stage, they will wait no longer than 30 days; is that correct?
    Ms. Rubens. At the end of the process, the final 
notification when we get that final package back from DoD, the 
time it will take us then to finally promulgate that benefits 
notification on average for the army is at 30 days.
    I will need to go and look to see if Fort Bliss is outside 
of that, but I believe we are now looking at a timely situation 
across the benefits phase.
    Mr. O'Rourke. Okay. And I have got limited time, but the 
reason then that I am showing 48 days army-wide versus 30 days 
which is what you are saying is that you still have those older 
cases in the system and as soon as they move out, you will be 
at that 30 day?
    Ms. Rubens. And/or you are looking at information, and that 
is why I need to go perhaps to sit with one of your staffers to 
look at. Are you looking at the average processing time across 
the entire course of the year which as we work the older ones 
out meant that days to complete had gone higher and as we look 
at the work coming in, it is now timely.
    Mr. O'Rourke. Okay. My time has elapsed. This is something 
that I am going to ask my staff through this hearing to 
memorialize in a letter to you and get a written response back 
from you so I fully understand it can go back to the WTU at 
Fort Bliss and explain it in my own words which I am not yet 
able to do given your answer. I think you are saying what I 
want you to say and what they want to hear, but I want to make 
sure that we are absolutely clear on what the expectation is 
and what we are delivering.
    So appreciate that in advance for getting back to us.
    Ms. Rubens. Happy to do that and/or sit with anybody you 
might to have us sit with to look at the Bliss statistics.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chair.
    Mr. Runyan. Thank the gentleman.
    With that, I recognize the gentleman from Florida, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate you 
holding this hearing as well.
    And I think Mr. Cook is right on with his acronyms, but, 
you know, he has been saying it now for months, years really, 
and let's sit down and work on this because it is so very 
important to the veteran.
    And I am 51 and to tell you the truth, I have to read these 
things twice to understand what they are. So, I mean, just for 
the good of the veterans, so we owe them that, so that they can 
look at it and not have to have the computer training, what 
have you, and not have to go to--it is nice for them to spend 
time with their grandchildren, but my kids fix my computer, 
too. So, I mean, let's get serious about this.
    And I have a couple questions here. Ms. Weaver, you noted 
that by the summer of 2014, the military departments will be 
able to work from a much improved set of policy documents that 
will provide better guidance.
    When exactly will these policy documents be issued?
    Ms. Weaver. They are in the final processing and they will 
start being published hopefully next month through the end of 
August.
    Mr. Bilirakis. Okay. Will you be able to quantify their 
impacts on both quality and consistency of the decisions and 
how will that occur?
    Ms. Weaver. We are implementing a quality assurance program 
and that is one of the new policies that we have that will help 
the department measure accuracy and consistency, particularly 
in how policy is applied across the services. Services 
performed to evaluations, OSD performs one. We analyze the 
results and then we can see if policy has been applied or if 
policy needs to be revised.
    Mr. Bilirakis. Thank you.
    Ms. Weaver, you noted that 83 percent of servicemembers are 
satisfied with the IDES, here we go with the IDES, experience.
    Could you tell us more about that? Elaborate, please.
    Ms. Weaver. Each quarter, we do a customer satisfaction 
survey. The survey is done at a sampling of nine of the major 
locations where IDES is--where the members are enrolled and 
consensus at the remaining 131 MTFs. The survey is done after 
the medical evaluation board and again after the physical 
evaluation board.
    It is a volunteer survey. July through December, we did 
have 8,000 individuals who participated in the survey. And from 
the 30 questions, four related to customer satisfaction, 83 
percent indicated they were satisfied with the process.
    Mr. Bilirakis. Okay. Now 8,000 of how many participated in 
the process? So what percentage would that be? You said 8,000 
participated. How many are in the process? Eight thousand 
participated in the survey, but what would you say percentage 
is?
    Ms. Weaver. I don't have that number, sir, but I can 
certainly get it for you.
    Mr. Bilirakis. Please, or would you like to estimate 
approximately?
    Ms. Weaver. I don't have any number of how many.
    Mr. Bilirakis. Okay. Can you please get that to me and 
maybe, you know, the chairman?
    Ms. Weaver. Absolutely.
    Mr. Bilirakis. The rest of the panel might want that 
information as well. Thank you.
    Ms. Weaver, you highlighted the Electronic Case File 
Transfer System that DoD piloted in 2012, but you know that 
until VA develops its end of the technology, it will not yield 
benefits and it is not going to be timely, in other words.
    Please elaborate on this and what has DoD developed and 
what does VA need to do?
    Ms. Weaver. We have used the electric transfer and it was--
--
    Mr. Bilirakis. See what I mean?
    Ms. Weaver. Yeah. And it was successfully that we made the 
transfer in December of 2013. But what we are working on is a 
joint system, case management system called Joint Disability 
Evaluation System that will allow us to track cases, monitor 
exactly where they are at so that we can go from phase to phase 
and know exactly where the case is and do a transfer to and 
from internal within the service from the MEB or medical 
evaluation board to the physical evaluation board and from DoD 
to VA.
    We are in the concept phase identifying the requirements 
and we think it is going to gain major efficiencies for a 
modern and efficient system.
    Mr. Bilirakis. All right. Thank you very much.
    I yield back, Mr. Chairman. Appreciate it.
    Mr. Runyan. Thank the gentleman.
    With that, I recognize the other member from Florida, Mr. 
Jolly.
    Mr. Jolly. No questions, Mr. Chairman. Thank you.
    Mr. Runyan. Thank the gentleman.
    I am going to ask one follow-up. I actually had a couple, 
but Mr. Bilirakis got to them all. So thank you.
    This is the kind of question in the mold of Colonel Cook 
over here. We hear everything that is going right. I want to 
hear from Ms. Weaver and Ms. Rubens what isn't going right.
    What do we really need to fix that would make a huge 
difference in the process? I mean, what can really tackle? What 
are we going to get out of this hearing? I mean, as Colonel 
Cook over here identified his flaws in front of everyone. That 
is what we want to know from you. So what is the one thing that 
could change the trajectory of this whole process?
    Ms. Weaver. I think what DoD is hearing from the hearing is 
that we need to go back and look at our survey. We have a 
significant number of people who are participating in the 
survey and we are getting results that say as of December, 83 
percent were satisfied with the process. As of the end of 
March, 4,000 more surveys, 84 percent were satisfied with the 
process.
    And we are trying to make changes from the information that 
we get to the survey. We may need to look and see whether or 
not we--how we can reach out and touch the individuals who are 
expressing concern with either the time or the counseling that 
they are getting.
    Mr. Runyan. Ms. Rubens.
    Ms. Rubens. I would echo some of those sentiments and 
obviously it sounds as if our ability to communicate with the 
servicemember, soon to be veteran could be improved.
    VBA has worked in the last year to pick up, if you will, 
another component of that transitioning servicemember who as he 
or she begins to think about what next by placing our 
vocational rehabilitation and employment counselors at many 
IDES sites as well in an effort to continue to build that, if 
you will, system around that transitional servicemember.
    And I would tell you that obviously we want to continue to 
work together in that electronic interface to ensure that as 
DoD across the services builds that integrated case management 
system, it marries up, if you will, sir, into our new Veterans 
Benefits Management System, our paperless environment to ease 
the process by which we share information not only internally 
but with that transitioning servicemember as well as if they 
have selected a veteran service officer as we roll out our new 
stakeholder enterprise portal functionality in July of this 
year so that they will have the ability to also support that 
servicemember and that communication standpoint.
    Mr. Runyan. I think you touched on a little bit there, it 
goes back, Ms. Rubens, to Mr. Bilirakis's question. What does 
the VA need to do on your end of the electronic case transfer, 
file transfer to make it optimal?
    Ms. Rubens. I would tell you that as far as making ECFT 
optimal, there are some things that we need to do from a--the 
MSC, the military services coordinator, at that intake site and 
their ability to work within that environment as well as from 
an electronic standpoint, the functionality of incorporating 
ECFT into that, if you will, interface with VBMS to ensure that 
is occurring.
    And it is our roadmap to accomplish that. And as DoD 
continues to build their new case management system, we want to 
make sure that we are there to incorporate that as well into 
VBMS.
    Mr. Runyan. And what part of what fiscal year is that 
happening?
    Ms. Rubens. Sir, I will have to take that one for the 
record. I am not sure where it is on the roadmap. There are a 
number of things that we are trying to import, if you will, or 
build into the functionality for VBMS.
    Mr. Runyan. And one last question for Ms. Weaver. You said 
that an 83 percent satisfaction rating. What was the 17 percent 
on the other side, what was the kind of overall disappointment 
in the system?
    Ms. Weaver. It ranged. A lot of the comments were that they 
did not get the information they needed. It was varying with 
the medical evaluation board and the physical evaluation 
including the unsatisfactory rating that they got. They would 
like a different rating and move from there.
    Mr. Runyan. Any other Member? Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair.
    I would like to follow-up with Ms. Rubens on the line of 
questioning that I was pursuing earlier about IDES. And I think 
I may have some questions that can hopefully clarify this 
issue.
    On the benefits backlog portion of the DRAS process, you 
said that in March, you eliminated the backlog and by April, 
you were hitting your target of 30 days; is that correct?
    Ms. Rubens. Yes, sir. We closed the capacity gap between 
what we had to work and what we had the capacity to do in 
March. And in April, the work that we then began to see flow 
through was meeting that timeliness target.
    Mr. O'Rourke. And the number I referred to earlier or I 
showed that army-wide, we are at 48 days, not 30, that is the 
last three months. So that might explain the difference.
    So my question to you is, if we take this same measure 
three months from today, it will show 30 or under?
    Ms. Rubens. Yes, sir.
    Mr. O'Rourke. Okay. Great.
    Ms. Rubens. We have built this in our projection, in our 
capacity, in our modeling to ensure that as we move forward, we 
maintain achievement of the target.
    Mr. O'Rourke. So I want to ask the same set of questions as 
it pertains to the VA rating part of this which is that the 
goal is 15 days. Today the last three month average shows army-
wide 132 days.
    Are you saying that by August, you will relieve the backlog 
and by October, you will meet that 15 day goal?
    Ms. Rubens. Yes, sir.
    Mr. O'Rourke. Okay. And then three months from October when 
we look at the rolling three month average, we will see 15?
    Ms. Rubens. And 15 for the proposed and 30 for the final 
notification, yes, sir.
    Mr. O'Rourke. Wonderful. And would you mind if, again, we 
were able to get that commitment from you in writing?
    Ms. Rubens. Not at all, sir.
    Mr. O'Rourke. Okay. I really appreciate that. Thank you.
    That is all, Mr. Chair.
    Mr. Runyan. Thank the gentleman.
    And no other Members have any further questions.
    I ask that any of the questions that you all were taking 
for the record, please submit them in writing. Thank you very 
much. Thank you all again. I think it is particularly helpful 
to have both the VA and the DoD at the table when discussing 
IDES.
    You are now excused from the witness table, and we seat our 
second panel from VAOIG.
    Welcome the members of the VA's Office of Inspector 
General. We appreciate your attendance today. Your complete and 
written statements will be entered into the hearing record.
    Ms. Halliday, you are now recognized for five minutes to 
begin your testimony.

STATEMENT OF MS. LINDA A. HALLIDAY, ASSISTANT INSPECTOR GENERAL 
 FOR AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MS. NORA STOKES, 
  DIRECTOR, BAY PINES BENEFITS INSPECTION DIVISION, OFFICE OF 
    INSPECTOR GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY MR. RAMON FIGUEROA, PROJECT MANAGER, BAY PINES 
BENEFITS INSPECTION DIVISION, OFFICE OF INSPECTOR GENERAL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF LINDA HALLIDAY

    Ms. Halliday. Thank you. Chairman Runyan and members of the 
subcommittee, thank you for the opportunity to discuss the 
OIG's review of VBA's pre-discharge program. Our testimony 
offers an independent assessment of VBA's Quick Start Program, 
one component of VBA's pre-discharge program. With me today is 
Mr. Kent Wrathall, the Director in our Atlanta Audit Office; 
and two managers from OIG's Benefits Inspection Division in Bay 
Pines, Florida, Ms. Nora Stokes, the Director, and Ramon 
Figueroa, who collectively have over 40 years of VBA work 
experience. Notably they have experience working in key 
positions such as Veterans Service Representative, Ratings 
Specialist, Decision Review Officer, certification test writer, 
STAR quality reviewer, as well as a Veterans Service Center 
manager.
    The Quick Start Program was designed to provide a seamless 
transition from DoD to VA's Healthcare and Benefits System. 
Servicemembers can submit claims up to 180 days prior to 
discharge under the program. Further, the program makes it 
possible for veterans to receive VA disability benefits soon 
after leaving military service. To assess the program's 
performance we reviewed Quick Start claims completed in 2011 
and then again in 2013, and we found improvement in claims 
processing timeliness. During the period VBA reduced the 
average days to complete Quick Start claims from 291 to 249 
days. However, while timeliness improved additional improvement 
is needed if VBA is to achieve the VA Secretary's fiscal year 
2015 target of processing disability claims in 125 days.
    Delays in processing Quick Start claims resulted from 
inadequate program controls and the redirection of resources to 
process other claims processing priorities. Adequate resources 
and the proper allocation of resources are paramount for VA to 
realize the benefits of its transformational initiatives. 
Delays also occurred due to a lack of training to ensure staff 
properly identified Quick Start claims, which is the first step 
to initiate timely processing actions.
    Our review results support that the Quick Start claims were 
at risk of processing errors, such as erroneous disability 
evaluations or improper grants or denial of benefits. We 
projected VBA staff accurately processed 62 percent of the 
Quick Start claims in 2011, while the accuracy rate for 2013 
improved to 69 percent. These rates are still well below the 
Secretary's 98 percent accuracy goal for fiscal year 2015.
    Delays and errors impact veterans' receipt of disability 
benefit payments in two ways. First, the processing delays in 
2011 resulted in a number of veterans waiting an additional 196 
days to receive about $88 million in benefits payments. By 2013 
the same type of processing delays were reduced but still 
caused veterans to wait about 99 days to receive approximately 
$20 million in benefits payments. Unfortunately processing 
delays also impact other entitlement decisions, such as 
veterans preferences, delayed care at VA medical centers, and 
participation in vocational rehabilitation efforts.
    Secondly, the claims processing errors have a direct 
financial impact on the amount of benefits a veteran receives 
in monthly recurring entitlement payments. We projected claims 
processing errors resulted in veterans being underpaid about 
$2.8 million. Projected overpayments were valued at 
approximately $463,000 for the same period. Additionally, 
claims processing errors that do not affect current monthly 
benefits have the potential to affect future benefits if left 
uncorrected.
    While VBA is making incremental progress in areas 
specifically targeted through this initiative, much more work 
needs to be done. We will continue to look for ways to promote 
improvements in benefits delivery operations during our future 
national audits and our VARO inspections. Mr. Chairman, that 
concludes my statement and we would be happy to answer any 
questions you or the committee has.

    [The prepared statement of Linda A. Halliday appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Halliday. And we will begin a 
round of questions. First question, as you know while VBA is 
reporting timeliness an equal if not greater concern is the 
accuracy of the outcome for each veteran. VBA is looking at 
hundreds of thousands of claims and the veteran is looking at 
one and only one. Ms. Halliday, as accuracy as highlighted in 
your testimony is a serious area of concern, I would like to 
also ask you the question about VBA's quality component, STAR. 
You noted that VBA's STAR program has several classification 
errors such as benefit entitlement, decision documentation/
notification, and administrative. Mr. Murphy responded to an 
inquiry as to STAR's failure to count error for incidents with 
potential to affect veterans' benefits, such as when a claims 
folder lacked required evidence including medical examination 
or opinion needed to make an accurate decision. Can you comment 
on that?
    Ms. Halliday. Yes, I would appreciate that. The OIG uses a 
broader definition of what constitutes an error. We report 
errors that affect veterans benefits as well as those that have 
the potential to affect veterans benefits in the future if left 
uncorrected. We think this is important. It is a veteran-
centric approach. We do not feel that the STAR program counts 
all of its errors. There is a disagreement between what OIG 
considers an error and how VBA calculates its accuracy rate.
    I have a couple of examples here that we think might help 
you understand. VBA does not consider an incorrect disability 
evaluation to be a benefit entitlement error unless the error 
impacted the veteran's overall combined disability evaluation. 
However, OIG would identify this case as an error because it 
has the potential to affect the future benefits if left 
uncorrected and that it also has a corresponding potential to 
affect other programs as the ratings change.
    Also, cases where VBA staff simply do not request or 
significantly delay requesting the mandatory routine future 
examination to determine whether the temporary 100 percent 
disability determination should continue we clearly call an 
error. We see a significant financial impact associated with 
not managing those claims appropriately.
    Mr. Runyan. Thank you. Next question, is VA working with 
the OIG to make the improvements identified in the audit 
process?
    Ms. Halliday. This past year there have been significant 
challenges to us to address the oversight that we are expected 
and charged with to look in the benefits inspections and to 
perform national audits. I finally raised this issue to the 
Under Secretary Allison Hickey. She has agreed to try to ensure 
that we do not have these obstacles or have this resistance and 
that we work toward a facilitated process so that OIG can help 
VBA get it right.
    This is important. To spend so much time dealing with a 
nuance of a technical issue technically how you say something 
versus trying to fix the big picture is not the way to go. I 
think you need to look at what are we saying. Why are we saying 
it? How does it affect veterans? And then go make the changes 
you need in these programs.
    Mr. Runyan. Last question. In your view, given the 
challenges VA faces addressing the longstanding backlog of 
claims, do you feel the VA has control over its remaining 
workload?
    Ms. Halliday. At this time we see that VBA's pending 
backlog in compensation claims is dropping. However, I have 
significant concerns that they do not have a good handle on 
some of the workload in their other areas. For example, in the 
area of dependency issues. As of May 15, 2014 their own VOR 
report, which is the VETSNET Operations Report, shows almost 
253,000 disability claims that will impact benefits. On average 
the claims are pending over 315 days. For eligibility 
determinations, the same report shows approximately 110,000 
adjudication decisions relating to benefits that have been 
pending on average 361 days. And in predetermination notices we 
see approximately just over 81,000 predetermination notices 
affecting benefits that have been pending for 177 days.
    There are definitely problems in managing the workload. The 
priorities, we hear time and time again the priority is to 
bring down the pending backlog in compensation at the expense 
of not addressing some of the other issues. The Quick Start 
program is a perfect example within our audit where resources 
were redirected away from that program. And you can see in the 
audit there is a table that the workload, the timeliness spiked 
in 2012. And I know VBA is working hard now and has put 
resources back in the program, but you have to keep resources 
dedicated to significant transformational initiatives if you 
want to achieve success.
    Mr. Runyan. Thank you for that answer. And I had that 
precise discussion with Chairman Miller this morning. So, thank 
you. With that, I will recognize the Ranking Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I was going to ask that 
question, too. Do you think that these programs are being hurt 
by the focus on just reducing the backlog no matter what? And 
the veterans who are in these programs do not count as part of 
those figures that are used to show the backlog, even though 
they are waiting those long periods of time. Is that accurate?
    Ms. Halliday. That is my understanding, yes.
    Ms. Titus. Another thing that does not seem to count, and 
you mentioned that the VA does not count the processing time 
that occurs prior to leaving the service when they are talking 
about the amount of time it takes to process one of these 
claims. Would you expand on why that would be an important 
aspect of this whole backlog?
    Ms. Halliday. In the simplest of terms, if I am a veteran 
and I file a claim, I start counting from that day.
    Ms. Titus. Yes.
    Ms. Halliday. Now I understand that VBA is very concerned 
that they have upfront processing at a point where the active 
servicemember has not become entitled to the benefit. But when 
you are looking at a process you must look at the process 
throughout the entire processing cycle so that you can 
understand where you have dedicated your resources and to what 
extent you are getting the appropriate outcomes from that 
resource. So, and I feel that if you go with a veteran-centric 
approach you would count that time. You would not start the 
payments for entitlement until they were released from active 
duty and came into VA care.
    Ms. Titus. And would that help you to understand the whole 
process and the procedure?
    Ms. Halliday. Right.
    Ms. Titus. And make needed adjustments?
    Ms. Halliday. Absolutely. I think that in the many 
discussions I have had with Ms. Rubens and Mr. Murphy, I know 
that resources are needed and you have to make good decisions 
on where those resources are. So I think it is very important 
to measure all of your resources and track those. It is 
obviously an area where the Under Secretary had not concurred 
with us in our report, and we are going to stand pat with what 
we have said.
    Ms. Titus. Okay. Well, thank you. And going back to the 
first point about these programs failing because so many are 
doing less well than expected, because so much emphasis is put 
on the backlog, isn't it really kind of a matter of robbing 
Peter to pay Paul?
    Ms. Halliday. I have said that a number of times.
    Ms. Titus. Okay. Well great minds think alike. Thank you, 
Mr. Chairman.
    Mr. Runyan. The chair recognizes Mr. Cook.
    Mr. Cook. Thank you very much. And I will not say too much 
more about acronyms, maybe. The, your report, very sensitive, 
because I used to be an IG. And I looked at your 
recommendations. And by the way, IG, that is a thankless job. 
How to lose friends and not influence people, I used to say. 
But it is one that you have to have in an organization. And 
your job is not to make friends. You already know that.
    It bothered me a little bit, and maybe if you could help me 
out, where the, in two cases it had the VBA, which is, help me 
here? That is the Veterans Benefits Administration?
    Ms. Halliday. Yes.
    Mr. Cook. They disagreed with your opinion. And then you 
had the other one where it was actually the Under Secretary, is 
that the same individual for all intents and purposes?
    Ms. Halliday. I would consider it the same.
    Mr. Cook. You know these are, I was looking at them, you 
know, particularly one where the Under Secretary non-concurred 
but basically went along with it anyway. Did this go all the 
way up to the Secretary? Or is this something, is that a 
command decision that an Under Secretary would, because we are 
getting into some dicey stuff in the last few days on this. And 
I am trying to figure out on who is going to make these command 
decisions. These are pretty important. And maybe it is just my 
sensitivity with IG reports but 26 years in the Marine Corps, 
or what have you, everybody kind of gets a little nervous about 
IG reports and they pay attention to them, at least I used to. 
Maybe because I used to write them. But any comment on that at 
all? I do not mean to put you on the spot. But you know what I 
am saying, I think.
    Ms. Halliday. It is the responsibility of the Under 
Secretary for Benefits to provide the official signed comments 
to an IG report. I believe that the Secretary does get copies. 
He gets copies at the point of when we issue the draft report 
for review and to obtain those comments, and then gets copies 
of the final reports. If a report is significant we certainly 
brief, I would think we follow traditional audit processes that 
has an exit briefing, where we have a discussion with the VBA 
officials that are charged with the governance of the specific 
program. I have had many briefings with that team. And they 
feed up to their USB.
    Mr. Cook. Well this is an important point, at least to me. 
In the military you used to have two things. One was you would 
have by direction authority, in other words it is a commanding 
officer but somebody in the command could sign their signature 
by direction. That means that, you know, by signing by 
direction that the commander approves this. The other was 
releasing authority. Releasing authority means you can go out 
with a message that you are the Commanding General 2nd Marine 
Division. Very, you do not give those, that authority away. And 
that is why I brought up that point that whoever signs that 
basically the Secretary, the way I understand it, is concurring 
with all those decisions that are made. It is on his or her 
watch. Correct me if I am wrong.
    Ms. Halliday. If it is signed for General Hickey by one of 
her staff, yes. This is the official comments.
    Mr. Cook. Okay. All right. The, in terms of your role, and 
I think it is very, very important to go back to, how would you 
even be more proactive in light of some of the things? Do you 
have any recommendations in regards to that? I am not asking 
you to do more work but, yes, I am asking you to do more work.
    Ms. Halliday. I think that we plan the audits appropriately 
based on the risks in the programs. I think if you were to ask 
me about being more proactive I think there needs to be more 
discussion at the senior levels as work is completed to really 
how are you going to fix the problem? And as I alluded to 
before, worrying about the little technical nuances in getting 
everything just letter perfect really does not get you there. 
You really have to address the overall problem and how veterans 
are affected with the process and what is happening in whatever 
objective of the audit you are dealing with.
    Mr. Cook. Thank you. I yield back.
    Mr. Runyan. The chair recognizes the gentleman from Texas, 
Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Chairman. The BDD, the Benefits 
Delivery Discharge claims and the Quick Start claims I think 
year to date are under 25,000. So if we are measuring that in 
the thousands or maybe tens of thousands, and then all other 
claims moving through the VBA we are measuring in the hundreds 
of thousands or millions. So when you were responding to Ms. 
Titus' question earlier about robbing Peter to pay Paul, and 
you also mentioned that we need to make better decisions about 
how resources are allocated, do you have some recommendations 
for the VBA or for the committees of oversight in terms of how 
we should be spending that money in a smarter fashion?
    Ms. Halliday. I would like to see that you ask VBA to do a 
good staffing analysis for its initiatives and for its current 
work in house. There are too many areas that are being 
underaddressed at this point, or what I would consider 
undermanaged. I think at some point if you were to put the 
right resources on some of these things, such as temporary 100 
percent disability evaluations not being managed effectively 
and the association financial impact that we report in our 
reports, that would start to reduce and you would have a better 
operation. Not only from the fact that veterans would be served 
quicker with whatever decisions and reviews that were needed to 
make sure their claims were accurate. And then we would be 
saying that you have a stronger, you are making a stronger 
position as far as the financial stewardship that you are 
charged with VBA to ensure the entitlement decisions are 
accurate and timely.
    Mr. O'Rourke. And the, thank you for that, the chairman 
brought up a good question about why the VA's score for 
accuracy is better than your score. And you said one difference 
in the methodology is you look at potential adverse impacts to 
benefits down the road and perhaps the VBA does not. Is there 
any other difference in how you assess and the VBA assesses 
accuracy?
    Ms. Halliday. Yes, I believe there are. I would like to ask 
Nora Stokes to talk to the technical aspects of that.
    Ms. Stokes. As you mentioned there are some definite 
differences as far as the potential to affect benefits. And we 
do call oftentimes errors that relate to that. And that is 
particularly when things are missing from the file. And as Mr. 
Murphy had indicated in his response, I believe the specific 
question had to do with whether or not a VA examination if it 
were missing would that constitute an error. What we find in 
our benefits inspections are the VA examinations may be not 
necessarily missing, some are missing, some are inadequate, but 
they are used to evaluate cases with anyway. Our position is 
according to VBA policy those examinations should be returned. 
If an examiner notes something during a physical examination 
and another disability questionnaire is required and it is not 
completed and we consider that an error as well because you 
cannot come to the point where you can make a decision on a 
disability evaluation if you do not have medical evidence to go 
one way or the other. So those are some stark differences in 
the methods that we would determine an error versus VBA.
    Mr. O'Rourke. And Ms. Halliday, I hate to ask you to speak 
for the VBA, and I certainly want to follow up with Ms. Rubens 
and her team, but what is their response to that distinction 
and the assertion that those exams should be returned or should 
be counted differently than they are right now?
    Ms. Halliday. We have agreed to disagree----
    Mr. O'Rourke. Got you.
    Ms. Halliday [continuing]. At that point. That is why it is 
documented in this audit.
    Mr. O'Rourke. Okay. And then my last question, I do not 
know if you heard the exchange over IDES and where we are 
against backlog and goal for benefits and backlog and goal for 
rating. Did you have any concerns or questions? Or do you agree 
with the assessment provided by VBA about where we are at and 
where we are likely to be by October?
    Ms. Halliday. I cannot comment to that, sir. I do not have 
any ongoing work addressing that.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chair.
    Mr. Runyan. Mr. Jolly.
    Mr. Jolly. Thank you. I want to follow up just on a little 
bit of what we have discussed. And I understand the 
disagreement on timeliness issues seems somewhat jurisdictional 
and a couple of other matters. But on accuracy, you report that 
the accuracy rate is about 69 percent and one of the areas of 
non-concurrence is something that seems pretty benign, which 
was insufficient oversight and training. Can you elaborate a 
little bit on that? And, I mean, I will put my cards on the 
table. In many ways you are providing a little bit of oversight 
into reasons for the inaccuracy it appears. One of the reasons 
you identified was insufficient internal training and 
oversight. We are engaged in the same issue right now with the 
department obviously on healthcare deliver. Can you elaborate 
to the extent you are permitted to on the disagreement on the 
interpretation about the department's ability to provide the 
oversight and training in this specific area?
    Ms. Halliday. Yes. I would like to ask Kent Wrathall, who 
led the audit. But I do believe as you looked at the training 
issue it spoke specifically to how you identify a Quick Start 
claim. And I would like him to----
    Mr. Wrathall. The department actually agreed with the 
training recommendation on the identification of the Quick 
Start claims. Where they disagreed was on the clarification of 
policy concerning the nexus between servicemembers, the 
disability incurred during service and the claimed disability. 
And actually our accuracy experts here are Ms. Stokes and Mr. 
Figueroa, so I will turn it over to Ms. Stokes.
    Ms. Stokes. Yes. One of the areas that we where the 
oversight was lacking had to do with just the local quality 
reviews. So at the local level we did find that the accuracy 
reviews that most regional offices would conduct on a monthly 
basis for individual performance was lacking. While they did 
have some we did find it to be inadequate. When we discussed 
with the staff in the CPS sites that process Quick Start claims 
they told us that they were busy, they had other 
responsibilities, and that they did not have the time to 
conduct the comprehensive review.
    At the national level we found there was a lack of 
oversight in that the method that STAR uses to select their 
samples was lacking in that it did not sufficiently identify 
enough cases that you could actually get a feel for what the 
accuracy rate was for Quick Start claims. Or they co-mingled 
the results of the Quick Start cases with the results of the 
regional office. As an example, the Winston-Salem office had I 
believe for the year of fiscal year 2011 they had 255 reviews 
but only six of those claims that were reviewed were related to 
Quick Start. So we found that the method they are using was not 
sufficient to observe any sort of training deficiencies. And 
the other part of that is not only at the local and the 
national level were they not able to have a valid sample that 
might point to some of these training deficiencies, at the 
local level when they did conduct their quality reviews they 
also did not track and trend those types of errors so that they 
could address those training deficiencies by tailoring training 
to those particular areas.
    Mr. Jolly. I see. One of the reasons given was busy. I 
mean, I guess the part that concerns me is specifically the use 
of the word training because of what that means for the ability 
of an employee to perform. Oversight in one way is a little 
less concerning if that is where it is deficient. But if 
training is where it is deficient, you know, that just breeds a 
more systemic problem as case loads go up and the number of 
cases go up, failure in training just continues to build upon 
itself and create a larger problem. I appreciate your answer to 
the question. Thank you. Thank you, Mr. Chairman.
    Mr. Runyan. I thank the gentleman. Do any members have any 
further questions? With that, thank you all again and you are 
now excused from the witness table and we ask the third panel 
to come forward.
    Good afternoon, everyone. As I noted in prior panels all of 
your complete and written statements will be entered into the 
hearing record. I know I did this earlier, but I want to 
recognize Mr. O'Rourke if he would like to make his 
introduction again.
    Mr. O'Rourke. Thank you, Mr. Chair. The person I want to 
introduce deserves a second introduction. Ms. Gipson is a 
Retired Captain from the U.S. Army, was the Executive Officer 
at the 
Warrior Transition Unit in El Paso at Fort Bliss, a former 
constituent of mine recently until March. She was instrumental 
in ensuring that I understood some of the issues at the WTU by 
arranging a tour there and I think will speak very eloquently 
to some of her personal challenges that can be extrapolated 
against the challenges that many transitioning servicemembers 
face. And so we are very glad and grate for her presence here 
today. Thank you, Mr. Chair.
    Mr. Runyan. I thank the gentleman. With that, we are going 
to start with Mr. Jenkins. Mr. Jenkins, you are now recognized 
for five minutes for your testimony.

    STATEMENTS OF MR. ERIC JENKINS, RATING VETERANS SERVICE 
    REPRESENTATIVE, WINSTON-SALEM REGIONAL OFFICE, AMERICAN 
   FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO AND THE AFGE 
     NATIONAL VA COUNCIL; MS. DEBRA J. GIPSON, INDIVIDUAL 
      SERVICEMEMBER; MR. GERARDO AVILA, NATIONAL MEB/PEB 
 REPRESENTATIVE, THE AMERICAN LEGION; MR. PAUL RAYMOND VARELA, 
   ASSISTANT NATIONAL LEGISLATIVE DIRECTOR DISABLED AMERICAN 
VETERANS; AND MR. BRENDON GEHRKE, SENIOR LEGISLATIVE ASSOCIATE, 
         VETERANS OF FOREIGN WARS OF THE UNITED STATES

                   STATEMENT OF ERIC JENKINS

    Mr. Jenkins. Chairman Runyan, Ranking Member Titus, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify before the subcommittee on the critical 
issues surrounding the BDD, Quick Start, and IDES programs.
    I am a 15-year veteran of the United States Marine Corps 
who served in both Operation Enduring Freedom and Iraqi 
Freedom. I am an RVSR in the Winston-Salem regional office 
where I have worked for the past nine years. I am proud to 
serve veterans every day and I am also a disabled veteran.
    As an RVSR I work both BDD and Quick Start claims and I 
would like to begin my testimony by stating my dedication as 
well as AFGE's dedication to all of these programs. These 
programs are critical for providing recently discharged 
veterans their benefits as soon as possible and it is essential 
that these programs are functioning at their highest capacity.
    My regional office has a history of brokering claims to 
other regional offices in an effort to reduce the backlog. In 
doing so it has created a lack of sufficient cases that are 
ready for decision. We have brokered out approximately 20,000 
cases in the last three years and now claims processors are 
struggling to receive adequate amounts of work to meet their 
production standards. Supervisors have been left scrambling to 
find work for the Quick Start employees. Due to brokering RSVRs 
are relegated to completing tasks traditionally done by VSRs.
    Due to the lack of work, management recently instructed 
employees in BDD to begin a practice called pre-rating. Pre-
rating consists of rating a case that is not in fact ready for 
decision because we are awaiting VA exams or additional 
evidence. Management instructed the raters to rate these claims 
as if the medical evidence had already been received yet told 
the employees to not finalize the rating. This raises serious 
questions for both the veteran and VBA employees processing the 
claim. Employees could potentially receive quality errors if 
medical evidence arrives and does not coincide with the 
employee's pre-rating decision which also could lead to PIPS. 
Veterans should be concerned about this method used by VBA 
management and its effect on their rating decision. AFGE urges 
Congress to hold VBA senior management accountable for their 
brokering methods and potential effects it has on veterans and 
their dependents.
    As with BDD and Quick Start, employees in the IDES programs 
report the same dedication to IDES process. However, they did 
outline several issues that consistently appear. IDES claim 
processors expressed their frustrations with the lack of 
communication and training issues with MSCs, or military 
service coordinators as they are called. MSCs are scattered at 
military bases all around the world and when a claims processor 
at a VBA office is attempting to locate additional information 
about a claim it is often difficult to locate the original MSC. 
When the claim is sent to the regional office it is supposed to 
be ready for decision. However, our reports say that oftentimes 
this is not the case. This slows down the process for the VBA 
employee but most importantly increases wait times for the 
veteran. AFGE believes that more detailed training for MSCs 
will significantly reduce this issue.
    IDES processors also expressed issues with the National 
Guard and Reserve claims, the issue being not having complete 
military records and as they come to the regional office not 
ready for decision as well. At times when attempting to receive 
medical records the rater cannot locate the records or the unit 
the veteran is currently assigned to. All of these issues 
translate to major concerns with IDES production levels. Claims 
processors are also told not to defer cases, even though a 
decision cannot be made due to a lack of necessary evidence. 
There is constant pressure from the VA's Office of Field 
Operations and the production quotas established by OFO are 
arbitrary and unfair.
    AFGE also heard issues regarding resources for processing 
BDD, Quick Start, and IDES claims. Claims levels have 
skyrocketed while regional offices have seen minimal growth in 
staffing. AFGE urges VBA to hire additional claims processors 
and provide more in depth and relevant training for current 
employees.
    AFGE also urges VBA management to conduct a time motion 
study to determine how long each task takes to complete while 
working a claim. With the recent transfer to VBMS this time 
motion study is more applicable and necessary than ever.
    Once again, I would like to thank the committee for 
providing AFGE the opportunity to share our views and I would 
be happy to answer any questions.

    [The prepared statement of Eric Jenkins appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Jenkins. With that, Ms. Gipson, 
you are now recognized for five minutes for your testimony.

                  STATEMENT OF DEBRA J. GIPSON

    Ms. Gipson. Thank you, Chairman Runyan. I would also like 
to thank Congressman O'Rourke for inviting me to speak today.
    In 2011 while training to deploy to Afghanistan I received 
a severe back injury. By the time my Reserve detachment reached 
the active duty training site, Fort Bliss, Texas, I was 
confined to a wheelchair, earning me the nickname, ``The 
Wheelchair Soldier.'' Days later I was prescribed a cocktail of 
drugs which allowed me to walk but not without excruciating 
pain. Placed in the warrior transition program, efforts to 
rehabilitate my injury were unsuccessful requiring surgical 
intervention.
    Before my back surgery could be performed I required a 
surgical procedure to treat uterine fibroids, tumors on my 
uterus. I did not receive a follow up gynecological 
appointment.
    Placed in IDES, I was determined to be medically unfit to 
serve, received a 20 percent disability rating, medically 
separated, and received separation pay. Within days of signing 
paperwork agreeing to the rating, it was determined that I 
urgently needed a hysterectomy. I want to be clear that had I 
received a follow up to the original gynecological procedure, 
my hysterectomy would have been performed at least a year 
earlier and my disability rating would have been 70 percent. 
Instead of being medically retired, I was medically separated 
from the United States Army on January 11, 2014.
    In my opinion a strong democracy requires two professions, 
the legislator and the servicemember, each the weapon of the 
other. Healthy servicemembers are the weapons of the legislator 
while the legislator is the weapon of wounded, injured, and ill 
servicemembers. We have served as your weapon. On behalf of 
disabled and medically separated veterans we respectfully 
request that you harness your arsenal's full potential to fix 
the IDES system and maintain the strength of our democracy.
    I would like to present to you both short and long term 
recommendations. Please note that I participated in IDES as an 
end user, and please forgive me for any policy recommendations 
which overlap those of previous presenters.
    The first, establish a consolidated disability evaluation 
system. The IDES system is tiresome, timely, burdensome, and 
inefficient. The VA and DoD must consolidate the departments' 
disability systems with the shared goal to promulgate policy 
and prescribe uniform guidelines, procedures, and standards to 
eliminate redundancy inherent in adjudicating claims.
    Second, create a sole source disability rating. The 
military rates only fitting conditions while the VA rates all 
service connected injuries resulting in two different rating 
systems for servicemembers. The DoD and VA will need to reach a 
consensus on the definition of qualifying conditions and the 
rate at which those conditions and events are to be 
compensated. Understandably a bias in the favor of the more 
generous VA system will result in a corresponding rise in both 
retirement and medical costs.
    Information sharing. Plans to roll out shared use 
technology will enhance and improve agency accessibility to 
healthcare records. The plan is both necessary and ambitious. 
However, the current lack of available technology I believe is 
only part of a much larger problem. Government agencies, among 
them DoD and VA, must generate memoranda of agreement allowing 
agencies to openly share information. This will likely create a 
change in agency cultures from one of independence to 
interdependence when sharing information and resources.
    My interim recommendations are as follows. First, I 
recommend a fiscal set aside. Veterans in the servicemember 
transition process frequently complain about the receipt of 
timely payments once his or her claim has been adjudicated. To 
date, the receipt of benefit payments can take from 90 days to 
a year or more to process. While uncertain of the legal or the 
tax implications, I recommend that once a servicemember enters 
federal service, active duty, Guard or Reserve, a percentage of 
the servicemember's salary be escrowed until the IDES or 
retirement process is completed. The funds set aside could then 
be automatically reimbursed to the veteran as a lump sum 
payment used to bridge the gap between the date of retirement 
or separation and receipt of any long or short term benefits.
    An emergency rating reconsideration. Servicemembers who 
require emergency surgeries within 60 to 90 days of being rated 
should receive an automatic disability rating reconsideration.
    Thirdly, complete a comprehensive staffing needs 
assessment, which I believe has been covered by other members 
of the panel.
    Fourth, reduce waste, fraud, and abuse. The system is 
replete with opportunities for fraud, waste and abuse. The 
underlying premise of the adjudication process is to provide 
compensation and benefits for long term injury and illnesses. 
Any system which compensates servicemembers for injuries and 
illnesses must also incentivize healing and recovery. It is not 
a politically popular notion, however if the looming costs are 
to be reduced and full recovery is to be achieved this must 
also be a corresponding goal. A comprehensive assessment then 
must be performed about where opportunities exist to eliminate 
fraud, waste, and abuse.
    And finally, organizational change. We have got to change 
the organizational culture which punishes servicemembers either 
directly or indirectly for wounds, injuries, or illnesses. In 
the current climate servicemembers deemed unfit to fight or 
conduct acts of physical fitness are cast aside and labeled, 
often unfairly, as lazy or cowardly. I do not advocate 
battlefield group hugs. However, leadership training must 
encourage compassion, dignity, and respect. Likewise service 
providers, whether military or civilian, must receive similar 
training. Toxic leaders, both military and civilian, must be 
either retrained or moved out of leadership positions or 
positions of authority to mitigate damage to wounded and/or 
recovering servicemembers.
    In conclusion the recommended suggestions to improve IDES 
will each require a cross benefit analysis to determine 
feasibility. Such analysis is beyond the scope of this 
presenter. What is certain is that each cost and benefit must 
be assessed using both qualitative and quantitative analysis. 
It is my belief that undertaking such analysis, however 
painstaking, would improve IDES to the benefit of retiring 
servicemembers. Thank you.

    [The prepared statement of Debra Gipson appears in the 
Appendix]

    Mr. Runyan. Thank you. And with that, I recognize Mr. Avila 
for his testimony.

                   STATEMENT OF GERARDO AVILA

    Mr. Avila. Good afternoon, Chairman Runyan, Ranking Member 
Titus, and members of the committee. On behalf of our National 
Commander Dan Dellinger and the 2.4 million members of the 
American Legion, I want to thank you for bringing to the 
attention of America the transition of these servicemembers. I 
think it is especially important that you are paying close 
attention to the words of the veterans service organizations. 
Veterans service organizations such as the American Legion 
bring experience to the claims process and are critical 
stakeholders who can help the government meet its obligation to 
the veteran. The VA has recognized this on the civilian side of 
the dividing line of service and through their programs like 
the Fully Developed Claims Initiative capitalized on the 
partnership to improve the claims process and help veterans get 
the disability benefits they earned through their sacrifice in 
a more timely fashion.
    In my current position as Medical Board and Fiscal Board 
Representative, I have the privilege of assisting 
servicemembers who might not be able to continue their military 
career due to a medical condition. These individuals represent 
some of the most at risk transitioning servicemembers due to 
their current medical needs.
    While the current Improvised Disability Evaluation System, 
known as IDES, a joint program by DoD and VA, is an improvement 
over the previous system of doing medical evaluations, we can 
always make it better. The American Legion maintains a national 
staff at the Benefits Delivery Discharge location at Winston-
Salem, North Carolina and Salt Lake City, Utah, as well as out 
processing sites at Joint Base Lewis-McChord in Washington 
State, and the Washington, D.C. Capital Region. What we found 
is that servicemembers could benefit from better information. 
This is perhaps better illustrated by members of the Reserve 
and National Guard who might be going through the process by 
themselves back at their home state. They do not have the 
access to the same information and resources as their active 
duty counterparts.
    These veterans going through transition are making 
decisions that will impact their entire civilian lives and 
often they are being asked to do so with little understanding 
of what that impact will be. As American Legion service 
officers we can bring insight to what benefits they are 
entitled or not entitled to. We can also help them understand 
the importance of their medical exams. Helping servicemembers 
manage expectations and understanding the timelines is 
critical. Helping them understand what job training and 
resources are available, what short discharge or retirement 
options are best suited to them. The kind of guidance is still 
hit or miss without good counseling.
    The American Legion helps over 500 servicemembers a quarter 
with their BDD and Quick Start claims but thousands of veterans 
still go unrepresented. It is often difficult for service 
organizations to communicate directly with servicemembers on 
post. When you consider a report issue on May 20th by the IG, 
VA is making errors on these claims with only around a 69 
percent accuracy rate.
    Veterans need advocacy at every stage of the process. The 
American Legion hopes to continue working with the Department 
of Defense and the Department of Veterans Affairs to ensure 
that all veterans have advocacy throughout their transition 
process. The system exists to serve those who wear the uniform 
of the United States of America. But the American Legion exists 
to be a veteran serving veterans organization. And we can best 
do that when we bridge the gap between our veterans and 
servicemembers and the services provided by DoD and the VA.
    Thank you for inclusion of the stakeholders. We are happy 
to answer any questions.

    [The prepared statement of Gerardo Avila appears in the 
Appendix]

    Mr. Runyan. Thank you. And we will recognize Mr. Varela for 
his testimony from DAV.

                STATEMENT OF PAUL RAYMOND VARELA

    Mr. Varela. Thank you, Chairman Runyan. Good afternoon, 
Ranking Member Titus, and members of the subcommittee. DAV 
appreciates the opportunity to testify today at this hearing to 
examine more closely the IDES program and other aspects 
affecting active duty servicemembers participating in the BDD 
or Quick Start programs, commonly referred to as the pre-
separation process. My oral remarks will address three issues 
we find particularly important.
    First, time frames and benchmarks established within the 
IDES program. The IDES program was constructed with the 
expectation of servicemember reaching finality within 295 days 
and we will highlight several critical points along this 
transition path. Proposed rating decisions by D-RAS locations 
are required to be issued within 15 days of receiving 
notification that a servicemember has been deemed unfit for 
duty. DAV service officers in the field do report delays in the 
proposed rating process, in some areas ranging anywhere from 
three to six months. Once separated from service and now 
considered a veteran their disability compensation payments are 
expected to begin within 30 days of discharge. DAV service 
officers have reported delays in the processing of finalized 
IDES claims in Providence, Rhode Island and previous delays in 
Seattle, Washington. At Seattle, Washington D-RAS sites 
improvements have been noted within the past few months due 
mostly to consolidation and reorganization of resources. Delays 
are also reported out of D-RAS sites in Rhode Island, not only 
affecting final rating board determinations but also the 
proposed rating board determination.
    DAV finds most reports of delays are personnel related, 
specifically a lack thereof, a situation where demand has 
outpaced resources. A thorough evaluation is needed to 
determine exact resource and personnel requirements and whether 
a proper case to staff ration model exists. Of critical 
importance is when an active duty servicemember crosses the 
threshold and becomes a veteran. A delay here could have 
serious consequences as compensation benefits may in fact be 
their sole source of income.
    Second is VSO access and support. DAV's transition service 
officers have earned a renowned reputation for their services 
within the active duty and veteran community. Despite their 
reputable attributes and proven track records the launch of the 
new TAP/GPS program, whether deliberate or not, has adversely 
affected the level of service DAV TSOs have been able to 
provide during the pre-sep process. Prior to TAP/GPS DAV was 
heavily engaged in the pre-sep process. TSOs routinely provided 
briefings to class participants, many times at the insistence 
of military installations. They screened personnel medical 
records and performed one on one counseling to provide 
information and answer any questions posed by the participants.
    Unfortunately our role continues to diminish and is met 
with some resistance at some military installations. In some 
cases there have even been attempts to remove the VSO presence 
and functions entirely. What is presently occurring seems 
counterintuitive. In some instances VSOs' assistance is 
promoted, whether through the IDES process itself during the 
physical evaluation board proceedings, but most certainly while 
engaged with the VA during the claim and appeal process. VSOs 
represent roughly 60 percent of claimants and 70 percent of 
appellants before the VA. Collaborative efforts between VSOs 
and program affiliates would serve as a benefit to our 
separating servicemembers.
    Third, vocational rehabilitation and employment services. 
Servicemembers proceeding through IDES with ratings of 20 
percent or greater have direct access to voc rehab counselors 
stationed at military installations where IDES is performed. 
Bear in mind this IDES mission parameter is staffed with voc 
rehab counselors that are drawn away from daily regional office 
VR&E operations. DAV has testified on many occasions regarding 
the benefits of the VR&E program. VR&E can provide 
opportunities for immediate transition to employment upon 
separation, career counseling, and supportive services and 
plans if employment is not aligned prior to separation. VR&E 
benefits may not be realized by pre-sep personnel as their 
focus could be on the use of Post-9/11 G.I. Bill benefits. 
However, DAV and our independent budget partners have 
recommended that Congress remove the 12-year delimiting period 
to use this earned benefit to ensure it is available when 
needed, regardless of when that need arises. With the wide 
range of benefits offered through the voc rehab program it is 
imperative that servicemembers have as complete an 
understanding of this benefit as possible. It could prove 
critical at some point in the future if circumstances in their 
lives change.
    In conclusion resource needs must be comprehensively 
identified, procured, and utilized. Programmatic goals and 
parameters must be aligned to meet or exceed this servicemember 
and veteran-centric mission. VSO involvement during the pre-sep 
process is vital and should receive greater support by all 
program partners. VR&E eligible participants must continue to 
be identified. Availing these services during the active duty 
phase assures program understanding and gives our wounded, ill, 
and injured servicemembers and their families the best 
advantage by leveraging all available tools and resources 
needed to successfully transition out of the military.
    Again, Chairman Runyan, Ranking Member Titus, and members 
of the subcommittee, we thank you for the opportunity to 
present this testimony today.

    [The prepared statement of Paul Raymond Varela appears in 
the Appendix]

    Mr. Runyan. Thank you. And with that I would recognize Mr. 
Gehrke for the VFW testimony.

                  STATEMENT OF BRENDON GEHRKE

    Mr. Gehrke. Mr. Chairman and members of the subcommittee, 
on behalf of the men and women of the Veterans of Foreign Wars, 
I would like to thank you for the opportunity to testify at 
today's hearing on VA's performance in the servicemembers 
transition process. This past Memorial Day many Americans 
displayed pride in the veterans who fought in America's wars. 
Surveys show 91 percent of Americans say that they are proud of 
military servicemembers. Unfortunately the pride America has 
for its servicemembers still is not fully matched by the 
government agencies charged with supporting their transition 
back to civilian life.
    The 2007 Walter Reed scandal was a wake-up call to 
Americans that the government was not properly caring for our 
wounded warriors. The public was outraged that Marines and 
soldiers were living in disparaging conditions, forced to deal 
with inattentive management and woefully inadequate care 
delivery. Equally concerning was that veterans were being 
shortchanged on the disability and retirements they have 
earned.
    As a result Congress and the President conducted fierce 
oversight over the military's and veterans healthcare and 
disability benefits system. Congress concluded that the care, 
coordination, and reintegration services provided by the 
agencies were fragmented, leaving the public, servicemembers, 
and their families to question the government's commitment to 
those who carry the burden of battle. In 2008, Congress forced 
DoD and VA to create policies to ensure that the disability 
evaluation systems which determined their military and veterans 
benefits were streamlined and fair. As a result, DoD and VA 
collaborated to create the Integrated Disability Evaluation 
System, which simplified the disability evaluation process by 
eliminating duplicative disability examinations, ratings, and 
placing VA counselors in military transition facilities. The VA 
has also responded by expanding the Benefits Delivery at 
Discharge and Quick Start Programs to allow servicemembers to 
submit claims before their discharge date.
    The VFW believes these promising programs are a step in the 
right direction. However, we recognize that these programs are 
far from perfect. Servicemembers still suffer from the Defense 
Department's disjointed policies and leadership, which govern 
wounded warrior care; inadequate VA and DoD staffing dedicated 
to the benefits evaluation process; no integrated electronic 
healthcare system; and poor communication. The result of DoD's 
and VA's shortcomings is that servicemembers are waiting too 
long in wounded transition units as VA processes their 
disability claims.
    To reduce claims processing times we recommend that DoD 
collaborate with VA to reduce red tape and that VA expedite the 
adjudication of BDD and Quick Start claims. To ensure DoD 
creates and enforces the policies that ensure servicemembers 
are not shortchanged on benefits and that all policies are 
equitable, we recommend that Congress give the Under Secretary 
of Personnel and Readiness the sole authority to develop policy 
to improve the care and services provided through IDES.
    To say the transition process is seamless for 
servicemembers or that DoD and VA have an integrated disability 
evaluation process would be inaccurate. It is impossible to 
have an integrated disability evaluation process without an 
integrated electronic healthcare record system. Therefore it is 
imperative that Congress use their complete authority to ensure 
DoD collaborates with VA to create a fully integrated 
electronic healthcare record system. Also communication between 
DoD and VA senior officials must increase and the departments 
must conduct better outreach to servicemembers, family 
caregivers, and VSOs.
    In conclusion we acknowledge that both the Departments of 
Defense and Veterans Affairs are delivering quality care to 
servicemembers and veterans when accessible. We give them 
credit for addressing the disability evaluation system and 
setting ambitious timeliness goals for delivery and benefits so 
long as those goals are achievable. Timeliness is drastically 
improved from the estimated 540 days it took to complete a 
claim with the legacy system and VA and DoD continue to shorten 
the amount of time it takes to process disability claims. 
However, VA and DoD do not have the policies, procedures, and 
resources to address the influx of servicemembers who will be 
transitioning to civilian life as forces draw down. It is 
imperative that Congress not only boost its aggressive 
oversight over the agencies to ensure that they properly plan 
for the future, but they also must provide the fiscal resources 
to improve the access to care and benefits that our 
servicemembers have earned.
    Mr. Chairman, this concludes my testimony and I look 
forward to answering any questions the committee may have.

    [The prepared statement of Brendon Gehrke appears in the 
Appendix]

    Mr. Runyan. Thank you. And with that we will begin a round 
of questioning. And my first question is going to be for Mr. 
Avila. You note in your testimony that in a recent audit by the 
VAOIG on the Quick Start program VA responded that a lack of 
timeliness was due to an increase in Agent Orange claims. 
Unfortunately this seems to be a pattern from the VA in that 
they do not adequately project their future workload and divert 
attention from problems focusing on the unrelated issues. Can 
you please elaborate on this statement and how it negatively 
impacts a substantive focus on the improvement of pre-discharge 
claims?
    Mr. Avila. Mr. Chairman, when I work as an MEB/PEB issue in 
the IDES, I myself went through the pre-discharge claim. I 
retired two years ago and I used the pre-discharge claim. I 
used the BDD because I filed when I had over, I think I did it 
at 180 days. And that was a program that was currently being 
pushed by the VA. They said if you file this way your claim 
will be processed and you will receive benefits as soon as you 
exit the military.
    Maybe some of the issue is that these claims go to certain 
regional offices and a lot of members started filing the claims 
and either Winston-Salem or Utah would start receiving the 
claims. And what we started seeing is that the BDD and the 
Quick Start claims became a backlog because every servicemember 
that was transitioning was advised that this would be the most 
advantageous way. And by everybody filing we created a backlog.
    I believe now that BDD and the Quick Start claims have come 
down a bit. I mentioned the Benefits Deliver at Discharge, 
which was another initiative that started. Basically you are 
submitting a claim along with all your medical documentation 
and asking the VA to adjudicate the claim because they have all 
the information available. And I believe right now these claims 
are being adjudicated, depending on the regional office, 
between 130 and 135 days. And like I said, I deal with the IDES 
and maybe some of the issues with IDES too is all Army cases go 
to the Seattle Regional Office, all the other services go to 
Providence, Rhode Island. And I know right now the issue on 
that is the Seattle Regional Office, the Army, if you look at 
the number, they have the majority of the IDES cases. So maybe 
this is, I do not know, do they switch them off to another 
office? Or maybe there is another, we have got to look at 
another system to get these members their ratings a little bit 
quicker so we can definitely process them out.
    Mr. Runyan. Thank you. And my next question is for Mr. 
Jenkins. You note in your written testimony that pre-discharge 
employees experienced difficulties with communication with 
MSCs. Two-part question, what suggestions do you have to 
improving communication between MSCs and VSRs? And do you 
believe that greater VSO involvement in pre-discharge claims 
would help alleviate some of the concerns?
    Mr. Jenkins. Well to answer your question, chairman, any 
time we can have a VSO involved that is going to assist, they 
have direct contact with the veteran, they are interacting on a 
regular basis, and sometimes they can even speak for the 
veteran when it comes to a claim so they can speed the process 
along. As far as communication between MSCs and VSRs, training 
has a lot to do with it. Some of the MSCs that have been hired 
do not have previous development training. So they have a lack 
of understanding of the process. It all has to do with 
staffing, training. Those are the bottom lines to it all. They 
have to be trained properly and they have to understand the 
process between, how it works between the regional office and 
the IDES locations as well.
    Mr. Runyan. Thank you. And with that, I yield to the 
Ranking Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I would just say first, 
Ms. Gipson, my colleague Mr. Beto O'Rourke was certainly right. 
Yours is a power and eloquent voice for change and I thank you 
very much for being here. I would just ask you if at any point 
during the process were you asked by anybody, or did you take a 
survey, about how it was working? What could have been done 
better, if you were satisfied? Did you get, did you feel like 
anybody was asking for your feedback?
    Ms. Gipson. Yes, ma'am. I do. The issue with the survey is, 
you, I have some familiarity with surveys. And when you survey 
people makes a difference in what their response will be.
    Ms. Titus. Yes.
    Ms. Gipson. So for example if you survey a servicemember 
who has recently entered the IDES process and they are within 
the first 30-day window, their comment about the VA, or about 
the IDES system, is not going to be negative at all because 
they have only participated in the process for 30 days. If 
however you survey that same servicemember, say for example 
within six months of them exiting the service, when they have 
had an opportunity to sort of reflect back upon when or what 
happened to them, I think that the numbers may look very 
different.
    Ms. Titus. Yes.
    Ms. Gipson. And so to answer your question more 
specifically, yes, we were surveyed. But at the time, for 
example, that I took the survey, I was about six months into 
the process and that did not seem very daunting to me. Had I 
been surveyed again at month 15 my answers very likely would 
have changed.
    Ms. Titus. So you think the results are skewed based on 
when people take the survey----
    Ms. Gipson. Yes, ma'am.
    Ms. Titus [continuing]. And what has happened to them?
    Ms. Gipson. Yes, ma'am.
    Ms. Titus. I suspect that is true. It is pretty easy to 
manipulate numbers like that.
    Ms. Gipson. Yes, ma'am. Yes, ma'am.
    Ms. Titus. I would also ask the VSOs, starting with Mr. 
Avila, if you have ever heard that term Quick Start, Slow 
Finish, or Quick Start, No Finish? And have you, have you ever 
discouraged any soldiers from going through any of these 
programs, as we have heard of anecdotally? And then finally, I 
think Mr. Varela mentioned this, what specifically can we do to 
enhance your role to help soldiers before they are discharged 
like you help them after they become veterans that might 
facilitate this process?
    Mr. Avila. I have heard of the term, the Fast Start. What I 
currently do, I deal mainly with the MEB/PEB. I do assist 
servicemembers. And I know the other VSOs have representatives 
at installations. What I am currently advising somebody that is 
getting out is do not do BDD. I ask them to do an FDC. Right 
now that is what is getting results a little bit quicker. So 
they wait until they retire, they go through their transition 
course and gather all of the information and then once you are 
retired, or you can do it before, fill out all your paperwork, 
and then on your first day of retirement you go and submit it 
to the VA and use the FDC method. It depends on the regional 
office as well.
    What can we do? I think TAPS, there was focus on TAPS 
several years ago, to put different resources out there for 
veterans that are transitioning. So for my point on the IDES, I 
think we need to do the same part. Because yes. So these 
soldiers, as you know, they have legal rights. Once they get 
the MEB results they have so many days to seek legal counsel. 
They can use the JAG offices on the installation. They can use 
the DSOs. The issue is that not a lot of DSOs are doing 
specific IDES cases. They are doing your transitional VA claim. 
So I think maybe speaking with DoD, and I did have a meeting 
with DoD, Bret Stevens who is the Director of the IDES, and 
trying to see what the American Legion can do. We have service 
officers. Can we assist? What can we do to get the word out to 
these members so they can make the best decisions as they go 
through the process?
    Mr. Varela. Thank you, Congresswoman. Yes, we have heard of 
that term before, Quick Start, Slow Finish. We have discouraged 
some servicemembers from going through BDD or Quick Start, 
depending on their individual circumstances. What can we do? 
VSOs used to have broader access. And then all of a sudden with 
the implementation of TAP/GPS, we just became more and more 
marginalized. It is a collaborative effort. I mean, we are all 
in it together. We understand the active duty component, and we 
understand the veteran component. And we have transition 
service officers. I like to call them translation service 
officers, because we can translate a lot of what is happening 
in terms that they can understand.
    Mr. Gehrke. Thank you, ranking member, for the question. I 
think the numbers on the Quick Start speak for itself. It is 
249 days on average, I think. Members receive their benefits 
eight months after they discharge. So that is definitely not 
delivery on discharge. In regards to Quick Start, we will 
recommend to some servicemembers, veterans, that they not 
submit a Quick Start claim. It depends on where they are going 
home to. So if they are going home to St. Paul or Columbia, 
which regional office operates faster than the others, then we 
will say, no, wait until you get home and we will send a fully 
developed claim in. If they are going to, say, Waco or Houston, 
which is not well at all, we will say, no, let us do a Quick 
Start now and start the process because once you go home it is 
going to be horrendous.
    One thing that we recommended in the testimony is to treat 
Quick Start claims like you would a fully developed claim. The 
only thing different from a fully developed claim and a BDD or 
a Quick Start--well, I would say a BDD claim, is a DD-214. So 
theoretically they get to the rating officer fully developed 
and you theoretically should be able to rate that day. However, 
they are kind of pushed to the side and kind of waited on as 
they work their other cases. So if you treated them as the same 
process you would an FDC claim, you would likely see a fall in 
the processing times. But it is also important to recognize 
that if you shift the resources there you are essentially 
taking resources from elsewhere. But we believe these 
servicemembers are in need of the benefits the most. They are 
transitioning, they are wounded, they are still maybe looking 
for a job. So they are going through a lot of transition 
process and they really need that income to help them through 
that process. So I think it is appropriate to prioritize those 
claims.
    Ms. Titus. Well, thank you for your help. Thank you, Mr. 
Chairman, for the time.
    Mr. Runyan. I thank the gentlelady, and recognize the 
gentleman from Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I would like to 
begin by just noting for the record that Ms. Rubens from the 
VBA is still here and was here to listen to the OIG and to the 
testimony from veterans and VSOs and those who are working 
within the system to serve veterans, and also note that Ms. 
Halliday and her team from the OIG are here to listen. So I 
really appreciate their attention and respect to the members 
who are here giving their testimony.
    Ms. Gipson, you came up with a number of really good 
recommendations for us and VBA and DoD to follow. One of them 
was to change a culture that can seem as though it is punishing 
servicemembers. And I have heard this directly from 
servicemembers at the WTU at Fort Bliss in El Paso. We have 
read of some really egregious cases where it seems that the 
punishment is punitive, overly punitive if not downright 
humiliating. And I hope those are the exceptions and not the 
norm. And it is part of the pressure I feel to get that wait 
time down, which back in February was 185 additional days over 
the goal down to what Ms. Rubens has committed to in terms of 
what the VBA can control. Can you talk about from your own 
experiences what you have seen or witnessed within that 
culture, and how we might go about changing it? And I will have 
one additional question. So if you could answer that within the 
span of about a minute or two that would be great.
    Ms. Gipson. Yes, sir. It has been my experience that 
soldiers are often treated with if not open hostility then at a 
minimum a sort of dismissive attitude. It is not, I think that 
you have to start with the premise that soldiers deserve this, 
the wounded warrior programs and they deserve to have their 
illnesses and injuries treated. I think if you start there then 
that is a great springboard to build, around which to build 
policies and procedures that will advocate on behalf of the 
soldier.
    What I think happens is that there is a sort of consensus 
that these programs are there simply for soldiers to take 
advantage of and to get as many benefits as they possibly can 
before they exit the system. And there is a resentment that 
builds up. And I think if there can be policies that can abate 
that mentality, I think you can go a long way in changing the 
culture.
    Mr. O'Rourke. And I should also say that I have had a 
chance to speak with some of the commanders at the WTU, and you 
know from their perspective they have this obligation and 
responsibility to maintain discipline and readiness and there 
is this understandable tension between people who are on the 
verge of transitioning out and their commanders who may have 
them for, you know, in the case of El Paso a period approaching 
200 days longer than they should have. So it gives us added 
impetus to try to reform this system and as you say reform the 
culture within it.
    Mr. Gehrke, I wanted to follow up on some of the comments 
that you made and ask you a question that I asked the OIG about 
where we might better commit resources and staffing. We heard 
from Mr. Jenkins that one potential byproduct of brokering is 
that we have some regional offices looking for work or creating 
new or different kinds of work that may not be as effective or 
as efficient. You have heard my concerns about the wait times 
in the IDES process. What are your views on how we could 
improve staffing levels, resourcing? What are we missing and 
where are we missing that?
    Mr. Gehrke. Thank you for the question. I think Ms. Gipson 
was right on in saying that there needs to be some sort of 
staffing reassessment. I mean, we hear in all of these VAOIG 
reports or GAO reports that, one, there has been mismanagement. 
But two, it is always coupled with that there is a lack of 
staff. And so I would like to personally know what the formula 
is for deciding staffing levels, whether they have such a 
formula and what it consists of, and then how often they do 
those staff assessments. And not just for VBA, for VHA as well, 
and DoD as well. Because we always hear that they are missing 
physicians, they are missing rating officers, PEBLOs, across 
the board. And so there is a lack of resources. But it is hard 
to decide where to put the money and where to allocate those 
resources if there is not a proper formula for deciding what 
those staffing levels should be, and where it is missing, and 
where maybe it might be too much.
    Mr. O'Rourke. You know, from my perspective as long as VBA 
is able to meet their stated goals for timeliness and accuracy, 
I am very happy for them to decide where those resources are 
placed. When they are unable to then it seems as though they 
may need some help from either oversight bodies or VSOs that 
work directly with them. I would just welcome you and the other 
VSOs who are here to continue to stay in touch with us, where 
you might see deficiencies, where we are not meeting our goals 
when it comes to accuracy and timeliness, and where we might 
recommend additional resources being placed. So I appreciate 
your perspective on this.
    And it looks like I am out of time, but I would like to 
follow up with you if you have additional comments. And with 
that, Mr. Chair, I will yield back.
    Mr. Runyan. Do you want another minute or two?
    Mr. O'Rourke. Well, Mr. Gehrke, it looked like you were 
about to say something else. And so with the chair's indulgence 
I would love to get your answer on that.
    Mr. Gehrke. I was just going to say I think in the VAOIG 
report on Quick Start they pointed out that I believe it was 
San Diego or Salt Lake City that they had requested additional 
staff and VA provided those staff, and then that facility went 
and used the staff for other purposes. So we see that quite 
often. Where they say that we are going to use all this hundred 
people for Quick Start and they cut them in half and use them 
for Nehmer cases or some sort of other cases. Which shows that 
they may need even more staff than they are asking for or that 
is being allocated to them.
    Mr. O'Rourke. Thank you, Mr. Chair.
    Mr. Runyan. I thank the gentleman, and I thank everyone for 
being with us today, and the panel is excused. I appreciate the 
time and attention you spent preparing your remarks.
    It is obvious that there is still much to be done in IDES 
as well as the transitioning disability benefits programs. I do 
not want anyone here to lose sight of these transitioning 
servicemembers, our newest veterans, with any false argument 
that the VA has more important priorities until 2015. VA has 
always had to maintain multiple priorities and now through 2015 
is no different.
    I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
any extraneous material. Hearing no objection, so ordered. I 
thank the members for their attendance today and the hearing is 
now adjourned.
    [Whereupon, at 4:52 p.m., the subcommittee was adjourned.]

                                APPENDIX

                                 <F-dash>

            Prepared Statement of Ranking Member, Dina Titus

    Thank you, Mr. Chairman for holding this hearing today on behalf of 
our nation's veterans.
    Today, we will look into the performance of programs that VA and 
DoD utilizes to determine ill or injured servicemembers fit for duty 
status, as well as programs designed to expedite the adjudication of 
separating servicemembers claims. Particularly we will focus on the 
Integrated Disability Evaluation System (IDES), the Benefits Delivery 
at Discharge program (BDD) and the Quick Start Program.
    All of these programs have now been up and running for a number of 
years. IDES was initiated in 2007 in follow-up to poor conditions and 
fragmented care that our Servicemembers were receiving at Walter Reed 
Army Hospital.
    BDD was launched in 1995 as a pilot, and fully launched in 1998. 
The intent of BDD is to assist disabled servicemembers in making a 
seamless and successful transition to civilian life by allowing them to 
get their claim completed as early as possible while they have their 
medical information readily available and it is clear that there is a 
nexus between their disability and military service.
    Quick Start was launched in 2008, is similar in nature to BDD, and 
was established to provide an expedited disability benefits process to 
servicemembers that will be discharged within 59 days.
    Despite having been long established, and the intent and need to 
assist our servicemembers transition into civilians, all three of these 
programs continue to be fraught with challenges and are performing far 
below expectations.
    The one similarity that all of these programs have is that they all 
suffer from continued poor timeliness on behalf of VBA in adjudicating 
these claims. BDD and Quick Start have particularly seen a drop off in 
the number of claims filed under the program. In our Committee 
oversight travel, we have heard VA employees and VSO's alike suggest 
that participating in these programs will actually increase the time it 
takes for a veteran to receive an outcome on their case versus their 
intent to reduce it. The programs have also started to draw their own 
mantras amongst employees and veteran advocates such as ``Quick Start, 
Slow Finish.''
    In meeting with the VAOIG they have highlighted that eliminating 
the backlog has started to come at the price of other benefits and 
claims such as IDES, Quick Start and BDD, being moved to the back 
burner. The IG also highlights concerning disparities between VA's 
internal determinations of accuracy via STAR reviews and the accuracy 
levels that they have found in their reviews. I believe the timeliness 
metrics in combination with the VAOIG's findings speak for themselves, 
BDD, IDES, and Quick Start are simply not a VA priority.
    With regards to IDES, our committee continues to receive constant 
emails from servicemembers. They all generally have the same ask, ``I 
am in the Army, and I am waiting for a rating decision from the DRAS 
(D-RAZ) in Seattle, Washington, I need my VA rating so that I can get 
out of the military so that my family and I can move on with our 
lives.'' Many of them have emphasized a negative impact that the IDES 
process has had on them and their relationships with their families.
    Our staff has witnessed firsthand the poor culture that is often 
prevalent at IDES stations and Wounded Warrior Battalions. I want to 
thank Ms. Gipson, an Army veteran who recently went through the 
process, and is with us here today, for highlighting the negative 
culture in IDES, amongst other issues, in her testimony.
    I want to be clear about something with regards to the IDES 
process. There is no other process whereby VBA is holding individuals' 
lives, our Nation's injured servicemen and women, in bureaucratic limbo 
based on their need to reach a decision. An Army Reservist that enters 
the VA Rating stage of the IDES process today will not get her decision 
back from the Seattle DRAS (D-RAZ) until November 26th. She likely 
joined the IDES process around February 17th, 2014 and will not 
complete the process until June 23rd, 2015.
    As our servicemembers wait for a VA rating decision, they are often 
disconnected from their families who may be at the place they call 
home, which is often not the same location as the IDES processing 
facility.
    As our servicemembers wait for a VA Rating decision, they and their 
spouses are often hesitant to take college courses or technical 
training as they do not know when or how the IDES process will end.
    As our servicemembers wait for a VA rating decision, they and their 
spouses are often unable to accept or seek employment as they do not 
know when they will be discharged and when they will get back to the 
place they call home.
    For all of these reasons, and most all because it is the right 
thing to do, VA needs to take a hard look at their resources pointed at 
IDES and say how do we get to our goals today and not tomorrow.
    VA's timeliness issues aside, I would also like to start the 
dialogue on looking at the IDES process from a new perspective. An 
angle that emphasizes the servicemembers, their families, and their 
transition, over the current process that emphasizes DoD's need to 
determine if the servicemember is found ``physically and mentally fit 
to perform their military duties,'' or not.
    My staff recently sat down to discuss this idea with DoD and we 
were surprised to learn that 95% of our nation's servicemembers that 
enter into IDES are discharged through the program. Knowing that 19 out 
of 20 Servicemembers are going to be discharged how could we offer 
servicemembers that are selected to go into IDES with an alternative 
option?
    An option that would allow them more geographic flexibility in 
their transition, an option that would give them more flexibility to 
accept a new employment position or pursue an educational degree. 
Again, with 95% of IDES servicemembers getting out, I think we have to 
ask ourselves are we focused on the right outcomes.
    I think the 378 days that soldiers spend in IDES would be better 
utilized emphasizing transition through the right mixture of healing, 
education, and employment with fewer DoD requirements and increased 
access to assistance. A way that allows Servicemembers to heal from 
their injuries while growing their capacity for civilian employment.
    In closing, these programs have been around for a long time for the 
right reasons. It is time that we prioritize these programs to do right 
by those who need it most, our ill and injured servicemembers that are 
transitioning.
    I thank all of our esteemed witnesses for joining us today and look 
forward to hearing their testimony.

                                 <F-dash>

               Prepared Statement of Ms. Nancy E. Weaver

Summary

    Since 2007, the Department of Defense has collaborated with the 
Department of Veterans Affairs in an integrated and transparent 
disability evaluation system for Servicemembers who have any illnesses 
or injuries that may compromise their ability to perform military 
duties.
    In the Integrated Disability Evaluation System (IDES), 
Servicemembers receive a single set of examinations and disability 
ratings that DoD uses to determine fitness-for-duty and compensation 
for unfitting conditions and VA uses to compensate for all conditions 
incurred or aggravated during military service. Determinations are 
completed before a Servicemember is separated so both Departments 
provide disability benefits at the earliest point allowed by law.
    The advantages of IDES, compared to previous legacy systems, 
include: elimination of separate examinations and disability ratings; 
consistency between DoD and VA disability ratings; and, a reduction of 
post-separation wait time for VA disability benefits. The IDES reduces 
the administrative burden on Servicemembers who undergo a single exam 
and complete VA claim paperwork before discharge, and has resulted in 
improved Servicemember satisfaction, disability benefits timeliness, 
and rating transparency.
    DoD has continued to implement process enhancements to include: 
improved policy; increased staffing levels; and, training standards for 
counselors. These and other improvements have enabled DoD to achieve 
and remain below its core IDES processing goal of 105-days for the past 
several months.
    DoD is also looking at technology to gain more efficiency. We are 
working a joint system that will leverage existing IT capabilities 
where appropriate, as well as new capabilities, to support end-to-end 
case management; tracking, reporting; and, a bi-directional electronic 
IDES case file transfer. We will continue to work with VA to ensure 
system interface requirements are identified and planned for from 
design through deployment.
    In support of VBA's transition to a fully digital environment for 
claims processing, DoD achieved the goal to implement a secure 
interface to allow VA to query the Health Artifact and Image Management 
Solution repository for relevant Service Treatment Records by January 
2014 in accordance with the DoD--VA Joint Strategic Plan.
    We have worked diligently to develop and support a disability 
evaluation system that ensures our Nation's wounded, ill and injured 
servicemembers receive timely, transparent, and fair compensation for 
injuries and illnesses incurred in the line of duty.

Introduction

    Chairman Runyan, Ranking Member Titus, distinguished Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the Integrated Disability Evaluation System, also known as 
the IDES.
    Over the past several years, the IDES has greatly improved the way 
the Department of Defense (DoD) and the Department of Veterans Affairs 
(VA) evaluates our seriously wounded, ill, and injured Servicemembers. 
From 1949 to 2007, medically discharged Servicemembers have been 
processed through separate DoD and VA disability evaluation programs. 
Each department administered their own disability examinations and 
ratings and seriously wounded, ill, or injured Servicemembers had to 
wait until after they left military service to apply for VA benefits, 
even when DoD had already examined and rated their disabilities. In 
2007, those separate departmental disability processes took about 540 
days end to end, including 300 days for DoD and 240 days after 
separation from military service for VA. Separate examinations and 
ratings by the departments led to inconsistent and confusing results.
    The results of DoD and VA efforts to modernize disability 
evaluation are that since 2007, over 82,000 Servicemembers have 
benefited from IDES. Our joint processing times have decreased from a 
total of 540 days under the previous disability evaluation system to 
353 days total in April 2014, and currently 83 percent of 
Servicemembers in IDES express satisfaction with their IDES experience.
    Although the IDES improves on the previous disability processes, we 
must continue to enhance this system in order to be flexible in 
response to the changing demands of the 21st century. DoD is improving 
the IDES to meet those demands and be faster, fairer, and more 
consistent and transparent than the Departments' previous processes. 
The Department of Defense is committed to continuously evaluate and 
implement enhancements that will improve the IDES.

IDES Benefits

    At its core, IDES remains a fitness for duty evaluation process, 
with the primary objective of determining whether a Servicemember is 
physically and mentally fit to perform their military duties. But, the 
IDES process also offers a number of improvements and benefits compared 
to the previous legacy disability evaluation environment. Integrating 
the previously separate, sequential processes allowed the departments 
to eliminate duplicate disability examinations and ratings, co-locate 
many process administrators, share full medical records, and capitalize 
on VA's disability rating expertise. IDES also provides several direct 
benefits to Servicemembers. IDES introduces disabled Servicemembers to 
VA's health care and disability benefits system sooner, provides more 
consistent access to accurate and timely information about the process 
to Servicemembers, their families and caregivers, provides disabled 
Servicemembers their proposed VA disability rating prior to leaving the 
military, and provides more consistent, understandable outcomes for 
Servicemembers going through the process. And, the Servicemember 
retains all of his or her rights to due process in both Departments. 
These benefits were achieved through successful collaboration between 
DoD and VA.
    In the past, the two Departments used their own examinations to 
determine medical conditions incurred or aggravated by military 
service. They also developed separate ratings for the degree of 
disability caused by those medical conditions. This often led to 
different results between DoD and VA for disabling conditions, 
disability ratings and compensation levels, fostering confusion and 
objections over the outcome. Now, DoD provides VA the member's service 
treatment record. VA conducts the disability examinations, which are 
then added to create a complete service treatment record. DoD uses the 
completed service treatment record to determine whether each condition 
makes a Servicemember unfit for continued service. VA uses the Veterans 
Affairs Schedule for Rating Disabilities (VASRD) to establish a 
proposed rating for each disability incurred or aggravated by military 
service. VA shares those results with DoD and each Department then uses 
the results to establish a Veteran's disability determination. The IDES 
process ensures consistent disability evaluations and ratings for the 
set of medical conditions that make a member unfit for service.
    Use of a common form and co-located resources also contribute to a 
faster, fairer, and more consistent and transparent process. The 
Departments share the VA/DoD Joint Disability Evaluation Board Claim 
form, VA Form 21-0819, to refer, track, and identify outcomes 
throughout the IDES process. Another advantage the IDES offers is in 
the area of communication. Wherever practical, DoD and VA case workers 
are co-located in the same building on DoD installations. This improves 
information flow and timeliness, and is more convenient for the 
Servicemember. Throughout the process, DoD and VA case workers keep 
Servicemembers informed of the progress of their case, what events and 
activities are coming next, and their rights and responsibilities. DoD 
case workers strongly encourage the Servicemember to include family 
members and caregivers during education and counseling sessions. This 
approach ensures that the Servicemember's personal support structure is 
well informed as to expectations and requirements.
    Throughout the IDES process, the use of a standardized form, co-
located process administrators, and the conduct of a single set of 
examinations to support the disability decisions of each Department 
help reduce the overall amount of time required for a Servicemember to 
progress from a disabling wound, illness, or injury through the 
disability evaluation process to the point where they have their DoD 
disability and benefits decisions, as well as their VA disability 
benefits notification. This allows Servicemembers to both better plan 
for their future as a veteran, as well as begin receipt of VA benefits 
much closer to their date of discharge from military service. By 
integrating the two separate disability evaluation processes, DoD and 
VA are much better positioned to support the Servicemember's transition 
to veteran status and reintegration back into the civilian community. 
The measurable improvements have benefitted thousands of seriously 
wounded, ill, and injured Servicemembers.

IDES Performance

    Over 82,000 Servicemembers have completed IDES since 2007. As of 
April, 2014, there were 29,640 Servicemembers enrolled in the IDES (73 
percent Army; 8 percent Marine Corps; 7 percent Navy, 11 percent Air 
Force).
    As of April 2014, integrating the Departments' processes had 
reduced the total time from when a DoD physician referrals a seriously 
wounded, ill or injured Servicemember for disability evaluation until 
receipt of VA disability benefits by 35 percent (an average of 540 days 
in the previous disability evaluation system to 353 days). Working 
together, the Departments reduced the ``benefits gap'' (time between 
discharge from the military and receipt of VA benefits) 86 percent from 
240 days in the previous disability evaluation system to 34 days in 
April 2014. DoD has demonstrated continuous progress in recent months 
by reducing the average time to complete the DoD's required core 
activities by 11 percent from 114 days in November 2013 to 101 days in 
April 2014. DoD core IDES activities include: physician referral for 
evaluation and intake counseling; preparation for and execution of a 
Medical Evaluation Board to assess the member's illnesses and injuries; 
preparation for and execution of a Physical Evaluation Board to 
determine whether the member is fit to remain in the military or must 
be separated or retired; and, a transition period to out-process and 
separate or retire those who must leave their Service, against a goal 
of 105 days. DoD has met the 105-day core process timeliness goal for 
the last three consecutive months. Among the Military Departments, the 
Army has successfully met DoD's core timeliness goal for the last six 
consecutive months; the other Services are continuing to improve their 
timeliness.
    However, more work is needed to meet the overall IDES timeliness 
goals. In April 2014, a Servicemember's case file averaged 353 days to 
complete the integrated DoD and VA process against 295-day (Active 
component) and 305-day (Reserve component) timeliness goals. Days to 
complete VA core processes improved 25 percent from 250 days in 
November 2013 to 187 days against a goal of 100 days. However, DoD and 
VA cannot achieve the IDES overall 295- and 305-day goals until both 
Departments reach their respective performance goals. VA has shared 
their improvement plan to meet its timeliness goal by October 2014. 
Together, the Departments anticipate meeting the overall goal by the 
end of this year.
    The integrated nature of the IDES means that each Department can 
gain efficiency in their core processes, but must be attentive of how 
these efficiencies affect both Departments' processes so they do not 
inhibit the smooth transition between IDES stages. DoD's improved case 
processing efficiency resulted in more cases being transferred to VA 
than could be completed, extending the time Servicemembers remained in 
the IDES process and on active duty.
    Timeliness is important, but DoD is also concerned with whether 
Servicemembers are satisfied with their IDES experience. DoD monitors 
Servicemember satisfaction with IDES through surveys at two key 
points--after Servicemembers complete their Medical Evaluation Board 
and after they receive the results of their Physical Evaluation Board. 
Seeking feedback after the Physical Evaluation Board is important to 
DoD because after that board, the Servicemember has been informed of 
their proposed disability rating and the results of the DoD fitness 
decision--return to duty, separate, temporary disability retirement, or 
permanent disability retirement. Servicemember feedback received 
between July and December 2013 indicate that 83 percent were satisfied 
with their overall IDES experience. Servicemembers reported even higher 
levels of satisfaction with IDES DoD customer service (88 percent).

IDES Enhancements

    As IDES matures, DoD has continued to work to refine and enhance 
the process. In 2011, the Warrior Care Policy Office began drafting DoD 
policy to combine thirteen separate policy documents, disability 
evaluation issuances, and directive-type memoranda. This is the first 
comprehensive rewrite of IDES policy and procedures issuances. By 
summer 2014, the Military Departments will be able to work from a much 
improved set of policy documents that provides simpler, clearer 
guidance to the individuals administering the program. This should, in 
turn, lead to more consistent interpretation and implementation of 
policy and more consistent outcomes. DoD appreciates the quality 
assurance program guidance in the National Defense Authorization Act 
for Fiscal Year 2013 (Public Law 112-239) and is preparing a 
comprehensive disability evaluation quality assurance program to fully 
implement Congress' guidance in October 2015. Implementing the quality 
assurance program will standardize the way DoD compares and reports the 
accuracy and consistency of DoD disability decisions. Analyses from 
these reviews will allow DoD to identify best practices and areas 
needing improvement. DoD will institutionalize the quality assurance 
program in policy to ensure long-term improvements to the accuracy and 
consistency of the process.
    DoD increased its IDES staff levels by approximately 700 
individuals (127 percent) between 2011 and 2013 to ensure it has 
sufficient case managers, doctors, lawyers, and adjudication staff to 
improve timeliness and sustain the performance of DoD core functions 
for Servicemembers in the process. Increased staff helps ensure 
Servicemembers, their families and caregivers receive more frequent and 
meaningful communication about the IDES and where the member is in the 
process at any given point, which makes the significant life event of 
transitioning to Veteran status somewhat easier. These actions ensure 
that the IDES is more transparent to participants and their families.
    DoD issued enhanced training requirements for Service Physical 
Evaluation Board Liaison Officers. These new requirements provided 
minimum standards for training program content and performance 
objectives for Physical Evaluation Board Liaison Officers to ensure 
their consistent performance and that Servicemembers receive the best 
possible counseling and support while in IDES.
    DoD verifies the Servicemember's service treatment record includes 
all available information prior to providing the record to VA. This 
ensures VA has all necessary medical information and can complete their 
medical examination and rating processes faster without searching for 
additional information. A complete service treatment record also 
increases the accuracy of medical examinations and helps the 
Servicemember retain an accurate assessment of his or her own health 
and fitness. While this change could result in an increase in time for 
a minority of cases referred into the IDES, it is in the best interest 
of the Servicemember that DoD provides VA all available medical 
documentation. Having the complete file ensures that all medical 
evidence is available for consideration and can prevent future case 
rework.
    DoD is continuing to make the necessary improvements to ensure we 
are using the best possible evaluation system. The IDES has been in 
place since 2007, and although we review processes regularly, DoD is 
conducting a follow-up study to a Fiscal Year 2012 National Defense 
Authorization Act (Public Law 112-239) requirement to provide critical 
analysis and recommendations for consolidating the organizations that 
execute the IDES. DoD expects to deliver the results of this analysis 
to Congress this summer.
    In the area of information technology enhancements, over the past 
year, the Warrior Care Policy Office and the Military Departments have 
been collaborating to identify business needs for a Joint Disability 
Evaluation System (JDES) IT solution. Each Service has varying degrees 
of IT maturity and none have the functionality required to fully meet 
Service's needs for disability evaluation. A JDES IT solution will 
provide DoD the capability to manage a flexible and adjustable DES to 
respond to the next contingency operation or war that drives more 
seriously wounded, ill, or injured, and reduce delays in transitioning 
Servicemembers from active duty to Veterans status or reintegration 
back to their units. It will enable the Department to leverage existing 
IT capabilities where appropriate, and include new capabilities to 
support end-to-end case management: tracking, reporting, and electronic 
IDES case file transfer in a twenty-first century environment.
    The current electronic Case File Transfer (eCFT) system is Phase I 
of JDES; it has been operating as a pilot at two locations since 2012. 
In December 2013, DoD tested an interface between eCFT and the VA Data 
Access Service (DAS), which allowed the transfer of files 
electronically to the VA. However, this information technology solution 
will only yield benefits in timeliness when VA can successfully 
establish a bi-directional case file transfer capability. Currently, it 
takes approximately 14 days of the IDES process to mail records within 
the Military Departments and between VA and DoD.
    DoD also revised the IDES satisfaction surveys in July 2013 to 
better capture and report Servicemembers' feedback. Additionally, the 
department recently conducted a survey of DoD personnel who administer 
the IDES process to gauge policy effectiveness, as well as satisfaction 
with training and resources.
    DoD expects these enhancements to lead to further improvement in 
IDES performance and the department will continue to monitor current 
performance and prepare for future challenges.
    Although not part of the IDES, you requested that we provide 
information as to the status of DoD and VA's agreement to provide 
electronic Service Treatment Records (STR) within 45 days of 
separation.
    In January 2013, in support of VBA's transition to a fully digital 
environment for claims processing, DoD committed to accelerate the 
deployment of the Health Artifact and Image Management Solution (HAIMS) 
for the purpose of transferring electronic STRs to VA. Specifically, 
DoD committed to and achieved the goal to develop and implement a 
secure interface to allow VA to query the HAIMS repository for relevant 
STRs effective not later than January 2014 in accordance with the 
Fiscal Year 2013-2015 DoD-VA Joint Strategic Plan.
    As of December 31, 2013, the Services stopped mailing hard copies 
of STRs to the VA and the STR scanning process commenced on January 2, 
2014. The process for digitizing a Servicemember's STR and making it 
retrievable by VBA begins with authorized DoD personnel scanning the 
paper-based elements of a newly separating Servicemember's STR. The 
digitized STR, comprised of the scanned information and digital content 
from the Servicemember's DoD electronic health record, is submitted 
into the HAIMS repository and made available to the VA as a single 
record.
    The current process entails the MTF conducting a Quality Assurance 
check on the STRs and within 45 days of separation/discharge, sending 
them to a designated scanning location--Central Cells--for each 
Service. The staffs at the Central Cells receive and track all incoming 
STRs. They also do the document preparation and metadata tagging needed 
for successful upload into HAIMS. Based on the MTF's QA check, the last 
document scanned into HAIMS is the DD Form 2963 (STR Transfer or 
Certification Form), certifying that all due diligence has be done to 
ensure the STR is complete.
    The Army and Air Force were initially operating at contingency 
sites and have just taken possession of a co-located scanning location 
in San Antonio, Texas. The Navy is using a contract facility in 
Chantilly, Virginia which is augmented by four additional Navy MTFs 
within CONUS. When a separated Servicemember or Veteran files a claim, 
a VBA rating specialist establishes a claim in VBMS on behalf of that 
individual. VBMS initiates an automated request for the STR. As of May 
12, 2014, the Services have scanned and uploaded over 44,000 STRs into 
HAIMS.

Conclusion

    An efficient disability evaluation system is key to ensuring a fit 
force and assuring fair compensation for a career cut short because of 
service-related wound, illness, or injury. Since piloting IDES in 2007, 
DoD and VA have made significant strides improving disability 
evaluation for our most seriously wounded, ill, and injured 
Servicemembers. Together DoD and VA have eliminated duplication, 
reduced paperwork and administrative burden, increased transparency and 
consistency in benefits outcomes, and accelerated delivery of 
disability benefits to eligible Servicemembers. As a result, IDES 
processing times have decreased, system efficiency has increased, and 
83 percent of Servicemembers report they are satisfied with their IDES 
experience. Despite these advances, DoD will continue to enhance the 
process to improve timeliness, fairness, consistency, and transparency 
in the IDES.
    Thank you for your support of the brave men and women that serve 
our nation, and your dedication to ensuring DoD has the most efficient 
systems in place to evaluate Servicemembers' ability to continue 
military service after a wound, illness, or injury and ensure the 
timely receipt of DoD and VA disability benefits for those who are 
medically discharged.

                   Prepared Statement of Diana Rubens

    Good morning Chairman Runyan, Ranking Member Titus, and Members of 
the Subcommittee. My name is Diana Rubens, Deputy Under Secretary for 
Field Operations, in the Veterans Benefits Administration (VBA). I am 
pleased to be joined by Thomas Murphy, Director of VBA's Compensation 
Service and [TBD], Department of Defense (DoD). My testimony will focus 
on the status of the Integrated Disability Evaluation System (IDES), 
Benefits Delivery at Discharge (BDD), and Quick Start programs.
    With respect to IDES, VA and DoD's joint efforts over the past six 
years have resulted in changes and improvements to DoD's Disability 
Evaluation System. These changes and improvements began in 2007 in the 
wake of the issues identified at the Walter Reed Army Medical Center. 
IDES originated as a pilot authorized by the National Defense 
Authorization Act of 2008 and was approved for enterprise-wide 
implementation in 2010, which was completed in October 2011. Since that 
time, IDES has been DoD's enterprise-wide disability evaluation system.
    Together the Departments have created an integrated disability 
process for Servicemembers who are being medically retired or 
separated. This joint process was designed to eliminate the 
duplicative, time-consuming, and often confusing elements of the 
separate and consecutive disability determination processes within VA 
and DoD. The goals of the process were to: (1) Develop a single set of 
medical exams used by VA and DoD for disability rating; (2) eliminate 
the benefits delivery gap from separation to receipt of VA benefits; 
(3) increase transparency and consistency of the disability evaluations 
for Servicemembers; (4) reduce the combined processing time; (5) 
develop a less complex and non-adversarial process; and (6) provide a 
seamless transition of benefits and health care for separating 
Servicemembers through IDES. As a result of our collaborative efforts, 
we have met these goals.
    In contrast to the legacy process for disability evaluations, IDES 
provides a single set of disability examinations and a single-source 
disability rating that are used by both Departments in executing their 
respective responsibilities. IDES has resulted in more consistent 
disability ratings, faster decisions, and more timely delivery of 
benefits for those personnel being medically retired or separated. 
Following discharge, VA can deliver disability benefits in the shortest 
period allowed by law, thus reducing the ``benefit gap'' that 
previously existed under the legacy process. Through the integration of 
VA's Military Service Coordinators (MSC) into the claims process prior 
to separation, Servicemembers no longer have to navigate the VA 
disability system on their own to apply for VA benefits. The VA and DoD 
integrated approach has eliminated the duplicate medical exam and 
rating processes found in the legacy system.
    VA and DoD continually track and monitor IDES performance. 
Additionally, VA's IDES Program Office conducts monthly internal video 
teleconferences with all VA senior executives involved in the execution 
of IDES. VA also conducts bi-weekly teleconferences with DoD and the 
military Departments to monitor performance, resolve problems, and 
discuss process improvements. Recently VA participated in the first 
Army IDES training symposium.
    Currently in IDES, there are approximately 29,000 Servicemembers. 
Within IDES, VA is responsible for four core process steps: Claim 
development, medical examination, proposed rating, and benefit 
notification. For the combined four core steps, VA average processing 
time in April 2014 was 183 days. This is a 29-day improvement from 
March 2014 and the lowest VA core time since April 2013. VA's target 
for the combined core steps is 100 days of the 295-day combined VA-DoD 
target.
    VA created a plan to improve IDES timeliness that involved a phased 
approach. The first phase of the plan was to meet benefit notification 
timeliness standards by March 2014. This portion of the IDES process is 
focused on ensuring Servicemembers who transition into the civilian 
world as veterans timely receive benefits to which they are entitled.
    The second phase of the plan is to meet timeliness standards for 
proposed ratings by October 2014. To meet these timeliness standards, 
VA trained and promoted 36 raters at the Seattle, Washington, 
Disability Rating Activity Site (DRAS); brokered 250 proposed ratings 
per month from Seattle to Providence, Rhode Island from August 2013 
through December 2013; instituted mandatory overtime; and implemented 
Disability Benefits Questionnaires (DBQ) at all sites. In addition, the 
Army provided 21 soldiers to VA to assist in preparing case files for 
rating at the Seattle DRAS.
    VA achieved its intermediate goal of eliminating excess inventory 
in the Benefits Notification stage in March 2014. In April 2014, VA met 
the performance goals for three of the four core steps: Claims 
development, medical examinations, and benefit notification. VA is 
still working on meeting the standard for completing the proposed 
rating.
    Mandatory overtime for claims processors remains in effect. VA and 
DoD also remain in close communication, discussing referral rates and 
production expectations. VA is on track to eliminate excess inventory 
in the proposed rating stage by August 2014 and meet all timeliness 
standards by October 2014. VA continues to collaborate with DoD on ways 
to improve IDES execution, while remaining focused on meeting 
timeliness standards. Our continued partnership with DoD is critical. 
VA and DoD are committed to supporting our Nation's wounded, ill, and 
injured Servicemembers through the IDES process.

Benefits Delivery at Discharge (BDD) and Quick Start

    The BDD and Quick Start programs are important elements of VBA's 
strategy to provide transitional assistance to separating or retiring 
Servicemembers and engage Servicemembers in the disability claims 
process prior to discharge. VBA's goal is to ensure that each 
Servicemember separating from active duty who wishes to file a claim 
with VA for service-connected disability benefits will receive 
assistance in doing so. Just as IDES provides Servicemembers facing 
medical discharges with the opportunity to initiate a claim for 
disability benefits, BDD and Quick Start provide this opportunity to 
Servicemembers who are transitioning via traditional or ``non-medical'' 
separation.
    Participation in the BDD program is available to Servicemembers who 
are within 60 to 180 days of being released from active duty and are 
able to report for a VA examination prior to discharge. BDD's single 
cooperative examination process meets the requirements of a military 
separation examination and a VA disability rating examination.
    VBA established the BDD program in 1995 at three VA regional 
offices and three Army installations. Today, there are 96 BDD memoranda 
of understandings (MOU) covering BDD operations at 131 military 
installations. The MOUs facilitate the collaboration between local VA 
regional offices and local military installations by streamlining 
processing of pre-discharge claims. In April 2007, in an effort to 
promote processing consistency and quality decisions, VBA consolidated 
BDD rating activity to the VA Regional Offices in Winston-Salem, North 
Carolina, and Salt Lake City, Utah.
    In July 2008, VA introduced the Quick Start pre-discharge claim 
process. Quick Start made pre-discharge claim processing available to 
100 percent of transitioning Servicemembers, including those who are 
within 59 days of separation, and those who are within 60-180 days of 
separation but are unable to complete all required examinations prior 
to discharge. In 2010, Quick Start claim processing was consolidated to 
the VA Regional Offices in San Diego, California, and Winston-Salem, 
North Carolina.
    VA's and DoD's marketing efforts, outreach activities with 
transitioning Servicemembers, and the support of Veterans Service 
Organizations, who promote the benefits of these programs, have 
resulted in high levels of Servicemember participation in the BDD and 
Quick Start Programs. By 2010, approximately 60,000 of the 181,000 
transitioning Servicemembers elected to utilize the BDD or Quick Start 
claim processes to submit VA disability claims each year.
    In August 2010, VA published its Final Rule establishing new 
presumptions of service connection for three disabilities associated 
with Agent Orange exposure: Ischemic heart disease, Parkinson's 
disease, and hairy cell and other chronic B-cell leukemias. From 2010 
to 2012, VBA devoted significant resources to readjudicating over 
90,000 previously denied claims for these three conditions, which was 
required by the order of the U.S. District Court for the Northern 
District of California in Nehmer v. U.S. Department of Veterans 
Affairs. Additionally, over 50,000 claims received after the decision 
to establish the new presumptive conditions was announced, but before 
the effective date of the final regulation implementing the decision, 
were also subject to Nehmer review. During this effort, VBA's 13 Day 
One Brokering Centers (D1BC) were dedicated exclusively to this 
readjudication. During this same period, there were significant 
increases in claim receipts for BDD.
    As the Nehmer mission ended, VBA utilized the D1BCs that were 
processing Nehmer claims to reduce the inventory of BDD and Quick Start 
claims. This effort took place from February 2012 to March 2014 and 
resulted in significant timeliness improvements. As of April 2014, the 
average days pending for Quick Start claims is 98.3 days, an 
improvement of 137.3 days since May 2012, and the average days to 
complete a Quick Start claim is 158 days fiscal year to date (FYTD), an 
improvement of 200 days since June 2012. As of April 2014, the average 
days pending for BDD claims is 136.7 days, an improvement of 55.8 days 
since April 2013, and the average days to complete a BDD claim is 198.2 
days, an improvement of 116 days since May 2013.
    Beginning in 2012, we began to see new trends in claims received, 
including a significant drop in claims for the Quick Start program, 
from 32,990 in Fiscal Year (FY) 2010 to 21,375 in FY 2013. As of May 
2014, a little over 11,000 Quick Start claims have been received FYTD, 
with less than five months remaining. As of April 2014, there are 6,649 
Quick Start claims pending, a decrease of 77 percent from January 2012, 
when there were 29,130 Quick Start claims pending. Receipts for BDD 
have declined steadily from a high of 30,893 in FY 2011, to 30,381 in 
FY 2012, and 27,333 in FY 2013. This FY through mid-May 2014, 
approximately 13,000 BDD claims have been received.
    Claims accuracy is not specifically measured for BDD or Quick Start 
claims processed at the three Rating Activity Sites. Instead, accuracy 
is measured for each regional office as a whole. As of April 2014, 
Winston-Salem's three-month issue-based accuracy is 98.7 percent and 
claim-level accuracy (12-month) is 89.5 percent; San Diego's three-
month issue-based accuracy is 96.1 percent and claim-level accuracy 
(12-month) is 85.2 percent; and Salt Lake City's three-month issue-
based accuracy is 98.6 percent and claim-level accuracy (12-month) is 
91.7 percent. As part of our transformation plan to eliminate the 
backlog of claims older than 125 days and increase quality to 98 
percent, VBA began paperless processing all Quick Start and BDD claims 
in December 2012. In October 2013, VBA began the use of the separation 
health assessment DBQs to expedite the rating process.
    VBA continually monitors claim accuracy and provides substantial 
training and oversight for claim processing personnel. Benefits 
Delivery at Discharge and Quick Start claims are included in the 
statistically random sample selected for the regional office's 
Systematic Technical Accuracy Review. Compensation Service Quality 
Assurance Program Review Staff also conducts special focused reviews of 
pre-discharge claims.
    VBA is now working to redesign the pre-discharge claim processes by 
building on lessons learned through the execution of the BDD and Quick 
Start Programs. The new pre-discharge program will consolidate and 
replace the existing BDD and Quick Start programs. VBA is leveraging 
functionality now available in the Veterans Benefit Managements System 
and eBenefits, to add convenience to the application process and 
efficiency throughout the claims process. Servicemembers can currently 
submit pre-discharge claims electronically through eBenefits; VBA is 
developing programming that will route these electronic applications 
directly to dedicated personnel who specialize in pre-discharge claim 
processing.
    VBA is also working to maximize the use of electronic record-
sharing in the pre-discharge claims process, and eliminate the 
requirement for pre-discharge claimants to gather and submit 
photocopies of their service treatment records as part of their 
application package. Pre-discharge rating sites will capitalize on 
DoD's commitment to provide VA with 100 percent of separating 
Servicemembers' ``gold standard'' service treatment records within 45 
days of discharge, which will serve to support more timely decisions on 
pre-discharge claims. This is accomplished via the Health Artifact and 
Image Management Solution (HAIMS) to VBMS interface, which was 
implemented January 1, 2014. The service treatment record ``gold 
standard'' contains the complete medical record, complete dental 
record, and DD Form 2963--Certification Form. All of these need to be 
available in HAIMS for transmission to VA in a complete package within 
45 days of separation/retirement from the military.
    VA is committed to supporting our Nation's Servicemembers through 
improvements in pre-discharge programs. VA believes its continued 
enhancements are critical to program success--and are nothing less than 
our Servicemembers and future Veterans deserve.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                 Prepared Statement of Debra J. Gipson

    I would like to thank Chairman Runyan for holding this important 
hearing on the Integrated Disability Evaluation System (IDES). I am 
honored to have been asked to participate.

History

    In 2011, while training to deploy to Afghanistan, I sustained a 
severe back injury. By the time my Reserve detachment reached the 
Active Duty training site, Fort Bliss, Texas, I was confined to a wheel 
chair earning me the nickname, ``The Wheel Chair Soldier.'' Days later, 
I was prescribed a cocktail of drugs which allowed me to walk but not 
without excruciating pain. Placed in the Warrior Transition Program, 
efforts to rehabilitate my injury were unsuccessful and required 
surgical intervention.
    Before my back surgery could be performed, I required a surgical 
procedure to treat uterine fibroids; tumors on my uterus. I did not 
receive a follow-up gynecological appointment. Placed in IDES, I was 
determined medically unfit to serve, received a 20% disability rating, 
medically separated and received separation pay. Within days of signing 
paperwork agreeing to the rating, it was determined that I urgently 
needed a hysterectomy. I want to be clear that had I received a follow-
up to the original gynecological procedure the hysterectomy would have 
been performed earlier and my disability rating would have been 70%.
    Instead of being medically retired, I was medically separated from 
the United States Army on January 11, 2014.

Introduction

    In my opinion, a strong democracy requires two professions: the 
Legislator and the Servicemember; each the weapon of the other. Healthy 
Servicemembers are the weapons of the Legislator while the Legislator 
is the weapon of wounded, injured and ill Servicemembers. We've served 
as your weapon. On behalf of disabled and medically separated Veterans, 
we respectfully request that you harness your arsenal's full potential 
to fix this system and maintain the strength of our democracy.
    I present the following long and short term recommendations:

Long-Term Recommendations

1. Establish a Consolidated Disability Evaluation System

    The Integrated Disability Evaluation System (IDES), the disability 
ratings process by which Servicemembers are evaluated and declared 
eligible for compensation, is timely, burdensome and inefficient. The 
VA and DoD must consolidate the Departments' disability systems with 
the shared goal to promulgate policy and prescribe uniform guidelines, 
procedures and standards to eliminate redundancy inherent in 
adjudicating claims using dual disability rating systems.

2. Create a Sole Source Disability Rating

    The military rates only ``fitting'' conditions while the VA rates 
all service connected injuries resulting in two different ratings for 
qualifying Servicemembers. The DoD and VA will need to reach a 
consensus on the definition of qualifying conditions and events and the 
rate at which those conditions and events are to be compensated. 
Understandably, a bias in favor of the current, more generous VA system 
will result in a corresponding rise in retirement and medical costs.

3. Information Sharing

    Plans to roll-out shared use technology by 2017 will enhance and 
improve agency accessibility to health care records. The plan is both 
necessary and ambitious. However, the current lack of available 
technology is only part of a much larger problem. Government agencies, 
among them the DoD and the VA, must generate Memoranda of Agreement 
allowing agencies to openly share information. This will likely require 
a change in agency culture from one of independence to interdependence 
on sharing information and resources.

Interim Recommendations

1. Fiscal Set Aside

    Veterans in the Servicemembers Transition Process frequently 
complain about the receipt of timely payments once his or her claim has 
been adjudicated. To date, the receipt of benefit payments can take 
from 90 days to a year or more to process. While uncertain of the legal 
or tax implications, I recommend that once a Servicemember enters 
Federal service (Active Duty, Reserve or Guard) a percentage of the 
Servicemember's salary be escrowed until the IDES or (retirement) 
process is complete. The funds set aside could then be automatically 
reimbursed to the Veteran as a lump sum payment used to bridge the gap 
between the date of retirement (or separation) and receipt of any long-
term or separation benefits.

2. Emergency Surgery Rating Reconsideration

    Servicemembers who require emergency surgeries within sixty (60) to 
ninety (90) days of being rated should receive automatic disability 
rating reconsideration.

3. Complete a Comprehensive Staffing Needs Assessment

    The Office of Personnel Management must undertake a comprehensive 
staffing needs assessment to: a) properly assess the cost/benefit of 
properly staffing the IDES system, and b) research areas where 
backlogged claims exist to determine whether problems of redundancy and 
inefficiency are functions of process or staffing related to 
organizational behavior, poor training, and/or a lack of incentives.
    Staffing at the appropriate level will go a long way towards: a) 
eliminating the current claims backlog and, b) reducing the amount of 
time it takes to assess individual claims. Increasing staff means a 
short-term increase in personnel costs offset by a reduction in both 
the amount of time it takes to process claims and the number of 
Servicemembers anxiously awaiting claims adjudication.

4. Manage Fraud, Waste and Abuse

    The system is replete with opportunities for fraud, waste and 
abuse. The underlying premise of the adjudication process is to provide 
compensation and benefits for long-term injuries and illnesses. Any 
system which compensates Servicemembers for injuries and illnesses must 
also incentivize healing and recovery. It isn't a politically popular 
notion. However, necessary if ballooning costs are to be reduced and 
full recovery a goal.
    A comprehensive assessment of where opportunities for fraud, waste 
and abuse exist must be conducted and measures put in place to mitigate 
such opportunities. Examples include: encouraging physician second 
opinions, eliminating redundancy in paperwork, and information sharing 
not just between agencies but within.

5. Organizational Change.

    We have got to change the organizational culture which punishes 
Servicemembers (directly or indirectly) for sustaining wounds, injuries 
or illnesses. In the current climate, Servicemembers deemed unfit to 
fight or conduct acts of physical fitness are cast aside and labeled; 
often unfairly, as lazy or cowardly. I do not advocate group hugs on 
the battlefield. However, leadership training must encourage 
compassion, dignity and respect. Likewise, service providers, whether 
military or civilian, must receive similar training.
    Toxic leaders (military and civilian) and service providers must be 
either retrained or moved out of leadership or positions of authority 
to mitigate damage to wounded and/or recovering Servicemembers.

Conclusion

    The recommended suggestions to improve IDES will each require a 
cost-benefit analysis to determine feasibility. Such analysis is beyond 
the scope of this presenter. What is certain is that each cost and 
benefit must be assessed using both quantitative and qualitative 
analysis. It is my belief that undertaking such analysis, however 
painstaking, will improve IDES to the benefit of retiring 
Servicemembers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  Prepared Statement of Brendon Gehrke

    Mr. Chairman and Members of the Subcommittee:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to testify on today's hearing regarding VBA's role 
in veterans transition as it relates to the Integrated Disability 
Evaluation System, the Benefits Delivery at Discharge and the Quick 
Start Program.
    In the 2008 National Defense Authorization Act Congress required 
DoD and VA to create policies to ensure that the disability evaluation 
system, which determines military and veterans benefits, is streamlined 
and fair. As a result, DoD and VA collaborated to create the Integrated 
Disability Evaluation System (IDES) which simplified the disability 
evaluation process by eliminating duplicate disability examinations and 
ratings, and placing VA counselors in Military Transition Facilities 
(MTF) to ensure a smooth transition to veteran status. The VA and DoD 
also responded by improving the Benefits Delivery at Discharge (BDD) 
program and created Quick Start programs to allow servicemembers to 
submit a disability claim before their discharge date.
    The VFW believes these programs are a step in the right direction 
to fulfil the country's promise to our wounded warriors, but we 
recognize that these programs are far from perfect. Servicemembers 
still suffer from the Defense Department's disjointed policies and 
leadership which govern wounded warrior care, inadequate VA and DoD 
staffing dedicated to the benefits evaluation process, no Integrated 
Electronic Healthcare System, and poor communication. We encourage the 
Committee to evaluate and implement the suggestions made by the 
Government Accountability Office (GAO), Recovering Warrior Task Force 
(RWTF) and Veterans Service Organizations (VSO).

Processing Times

    Currently, the Veterans Affairs' Benefits Delivered at Discharge 
and Quick Start programs are not living up to their names. The BDD 
program rarely delivers benefits within 60 days of discharge, and the 
Quick Start program may allow servicemembers to submit claims earlier, 
but the adjudication of those claims are anything but quick. As 
indicated in the latest VAOIG report on the Quick Start program, VBA 
reduced the average days to complete a Quick Start claim from 291 days 
in 2011, to 249 days for the period of April through June 2013. 
However, VBA needs to cut the amount of time to adjudicate a claim in 
half to achieve the VA Secretary's goal to have no claim pending more 
than 125 days. Likewise with BDD, the Salt Lake City Regional Office, 
who adjudicates 56 percent of BDD claims, takes an average of 266 days 
to deliver benefits. This means that a servicemember who applies 60 
days prior to discharge will not receive payment for at least eight 
months after their discharge.
    The amount of time it takes to process a claim through IDES 
frustrates wounded warriors and their commands. As of May 11th, it 
takes 284 days to process through IDES, although that number has grown 
as high as 376 days in the past year. It is important to note that 
processing times change daily and differ dramatically from facility to 
facility; Fort Knox has taken longer than 423 days to process claims, 
Fort Riley takes upwards of 336 days to process claims, while claims in 
Fort Gordon may process in less than 161 days. The processing time is 
even higher for reserve component servicemembers. Minnesota's National 
Guard Command reports that the average time to complete the IDES 
process for its soldiers is 581 days. Of Minnesota's active cases, the 
average soldier has been waiting in processing for 258 days; 43 percent 
have already exceeded the military's Medical Command standard of 204 
days to finish a claim.
    It is clear that the VA backlog is also creating a backlog in IDES 
cases. The longest phase in the IDES process is the VA disability 
rating portion, where 59 percent of cases pending are awaiting a VA 
rating decision. VA's goal is to process IDES claims within 100 days, 
but it takes 230 days on average to process claims. The VA's inability 
to process IDES claims is adversely affecting wounded warriors recovery 
and their transition process. The backlog creates unnecessary extended 
separations and financial burdens on families causing stress on an 
already vulnerable family. Moreover, it prohibits servicemembers from 
finding civilian employment and/or causes them to miss college 
enrollment dates.
    Unlike the BDD, Quick Start, or IDES claims, Fully Developed Claims 
(FDC) are close to meeting the Secretary's goals of adjudicating claims 
within 125 days. In 2010, Under Secretary Hickey refined the FDC 
program and encouraged veterans and VSOs to submit claims that do not 
require development of non-governmental evidence. Between the first and 
second quarter of this year, FDC submission increased from 12 percent 
to 18.5 percent, 25 percent of the claims VSOs submit are FDC, and the 
average amount of time to complete an FDC claim was only a 150 days. 
Despite the dramatic difference in the number of days it takes to 
adjudicate an FDC claim compared to a pre-discharge or IDES claim, the 
only document included in an FDC claim that isn't in a pre-discharge or 
IDES claim is a DD-214. Therefore, we recommend VA allocate resources 
to work pre-discharge claims as they would a FDC claim.

Inconsistent Management Policies

    It is difficult to evaluate the Department of Veterans Affairs role 
in the transition from servicemember to veteran without mentioning the 
Department of Defense's role in the transition process. The two 
agencies are inextricably connected; one agency cannot fulfill its 
responsibilities to the transitioning servicemembers without the other. 
Ultimately, the agencies share equal responsibility to ensure 
servicemembers successfully transition back to civilian life.
    In regards to IDES, DoD is responsible for guiding servicemembers 
through the entire process to ensure they are aware of their options 
and the many decisions they or their families need to make. In regards 
to the pre-discharge benefits program, DoD is responsible for managing 
all entry point sites and implementing the cooperative exam process--a 
key aspect of BDD to streamline access to benefits. DoD's lack of 
leadership, standard policies, and oversight has created large 
discrepancies in the standard of service and treatment servicemembers 
receive from one site to the next.
    Despite recommendations from VSOs, RWTF and GAO, the Defense 
Department still maintains a disjointed leadership structure for 
wounded warrior care. The Deputy Under Secretary of Defense for 
Personnel and Readiness is responsible for establishing health and 
benefit policies. However, the Deputy Under Secretary can develop the 
best policy possible to ensure continuum care and transition services 
but without the authority to force the military branches to implement 
DoD's guidance, as is the current situation, the policies are inept. 
Our concern is that these inconsistencies in the services' 
interpretation and application of the laws governing IDES affect 
servicemembers adversely.
    Therefore, the VFW recommends that Congress give the Under 
Secretary of Personnel and Readiness the sole authority to develop 
policy to improve the care and services provide through IDES. Only then 
will the Under Secretary be able to improve management of pre-discharge 
benefits sites, provide proper oversight, and most importantly force 
services to comply with DoD directives. Empowering senior civilian 
leaders will allow for the long-standing problems plaguing the process 
to be addressed and promote accountability.

Staffing Resources

    Insufficient staffing and budget allocations on both DoD's and VA's 
part contribute to poor case management and protracted disability 
determinations. servicemembers continue to complain that the military 
Physical Evaluation Board Liaison Officers, who are responsible for 
guiding the servicemember through the IDES process, are often 
overburdened and poorly trained. The same goes for the VA case managers 
who assist some servicemembers through the VA rating phase. Although VA 
and DoD officials said they added case managers to its IDES rating 
sites to handle the high demand, we have not seen an improvement in 
processing times or increased attentiveness to servicemembers and their 
family's needs.
    However, no matter how many case managers they hire, the long 
waiting times will persist unless VA and DoD ensure adequate physician 
staffing levels. DoD must ensure proper physician staffing levels to 
identify conditions and write narrative summaries that are used to 
determine the servicemembers' fitness for duty. Likewise, VA needs an 
adequate number of physicians to complete the Compensation and Pension 
(C&P) examinations used to determine both DoD and VA disability rates.
    Appropriations for VA have not kept pace with the demand created by 
thousands of severely wounded servicemembers returning home, resulting 
in staff shortage across the Veterans Health Administration. 
Compounding the problem is that sequestration limits DoD's ability to 
hire more doctors for the pre-discharge benefit sites and the MEB. The 
Administration (and previous Administrations) has requested 
insufficient resources to meet the ever-growing need for health care 
and transition services. It is now incumbent upon Congress to provide 
the staffing, facility resources, and technology software needed to 
help VA address the claims backlog, including the backlog in BDD, Quick 
Start and IDES claims.

Integrated Electronic Health Care Records

    To say the transition process is seamless for servicemembers, or 
that DoD and VA have an integrated disability evaluation process, would 
be inaccurate, although the agencies have drastically improved 
collaboration efforts. It is impossible to have an integrated 
disability evaluation process without an Integrated Electronic 
Healthcare Records System. For the past ten years, Presidential 
Commissions, Congressional Task Forces, VSOs and the GAO have described 
the need for an Integrated Electronic Healthcare Record System; yet 
veterans are not any closer to having one today than they were ten 
years ago.
    Since VA and DoD providers lack the ability to share health records 
for servicemembers instantaneously, they have to result to more archaic 
measures of sharing information, such as fax or snail mail. For 
example, one National Guard unit reported that they continue to ship 
hardcopy health records via FedEx to Reserve Components Soldier Medical 
Support Centers, and they are notified by mail when the MTF receives 
the packet. Furthermore, DoD uses different records keeping systems for 
inpatient, outpatient, and behavioral health records, making it 
difficult for servicemembers to ensure all their records are fully 
compiled and transferred. VA compounds the problem by brokering IDES 
claims; for example, one servicemembers' records were individually sent 
to Baltimore, Vermont, Maine, and Seattle before it was adjudicated and 
sent back to the MTF.
    The VA and DoD entered into a Memorandum of Understanding that 
required DoD to provide complete copies of Service Treatment Records 
(STR) to VA. Although the MOU went into effect early this year, a high 
level VBA official recently stated that 81 percent of Gold Standard 
STR's are overdue by 45 days.
    In addition, reserve component members face unique difficulties 
when obtaining scattered and often incomplete records because of 
members' multiple, nonconsecutive deployments. VA disproportionately 
denies Reservist and National Guardsmen benefits because they cannot 
establish that their condition is service-connected due to the missing 
Line of Duty (LOD) statements. An LOD determination is an 
administrative tool for determining a member's duty status at the time 
of injury, illness, disability, or death, and is the gateway to VA 
benefits. The VFW encourages Congress to urge the National Guard Bureau 
to create a uniformed LOD policy and implement a single electronic 
processing system to ensure all eligible reserve component members have 
access to earned healthcare and benefits.
    Similar to the lack of an Integrated EHR system, servicemembers 
need a singular transparent system to monitor IDES. Multiple system 
accesses are still required to obtain and track necessary data. The 
Veterans Tracking Application (VTA) is a joint VA/DoD application that 
tracks the initial arrival of a servicemember into the VA health system 
and monitors benefits applications and administrative details. VTA also 
tracks servicemembers that have been referred to a Medical Evaluation 
Board (MEB).
    We consistently hear from servicemembers, who are frustrated that 
they do not know the status of their IDES case because access is 
granted to a limited amount of staff. As a result, servicemembers 
cannot plan for the future because they don't know when the next exam 
will be or their discharge date. We recommend that VA work with DoD to 
broaden VTA access to those supporting wounded warriors to include, MEB 
attorneys, Community Based Warrior Transition Units and authorized 
veteran advocates.

Outreach

    The VOW to Hire Heroes Act established a requirement that all 
servicemembers, participate in the Transition Assistance Program by 
November 2012. Since the universal implementation of TAP, the VFW has 
gone from having an entire day to brief servicemembers on the benefits 
and resources available to them to five minutes in some locations. More 
so, VA continues to push servicemembers and veterans to the e-benefits' 
portal, which is not regularly updated, or does it allow veterans to 
share information with service officers. As a result of the TAP 
changes, we have found servicemembers are less aware of the BDD or 
Quick Start Program and are not seeking assistance with claims. In 
addition, when servicemembers use e-benefits they feel as if their 
claim enters into the abyss. Our fear is that if servicemembers do not 
seek VSO help they will ultimately end up filing appeals as veterans.
    We also understand that the TAP process introduces a variety of 
information resources, web sites, and call centers to servicemembers so 
that they can education themselves on their benefits. Much of the 
services provided to servicemembers by DoD are redundant, which can 
overwhelm and confuse servicemembers causing them to underutilize the 
services. An RWTF focus group, ``revealed significantly unmet needs for 
information'' at various points in the recovery or transition process. 
More so, we receive complaints from family caregivers and surviving 
spouses that DoD does not properly inform them of programs and benefits 
created by Congress to support them.
    While DoD has developed a means of tracking members' involvement, 
it has not established an accurate means to measure participation in 
TAP including VA benefit briefings. We believe that DoD and VA must 
establish a policy to promote the accuracy, timeliness, availability, 
and relevant information; they must also establish the method to gauge 
servicemembers' participation and satisfaction with TAP, and work to 
include community partners in the TAP process.

Conclusion

    The VFW acknowledges that both the Departments of Defense and 
Veterans Affairs are delivering quality care to servicemembers and 
veterans. We also give them credit for setting ambitious timeliness 
goals for delivering benefits and addressing issues with the disability 
evaluation system; timeliness has drastically improved from the 
estimated 540 days it took to complete a claim with the legacy system, 
and VA and DoD continue to shorten the amount of times it takes to 
process all disability claims.
    However, VA and DoD do not have the management, policies, 
procedures, and resources to address the influx of servicemembers who 
will be transitioning to civilian life once forces withdraw from 
Afghanistan and DoD cuts its force structure. It is imperative that 
Congress not only continue its aggressive oversight over the agencies 
to ensure they properly plan for the future, but they must also provide 
the fiscal resources to improve the delivery of care and benefits that 
our servicemembers have earned.

                                 [all]
</pre></body></html>
